<html>
<title> - DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2006</title>
<body><pre>[Senate Hearing 109-]
[From the U.S. Government Printing Office]



 
  DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2006

                              ----------                              


                        THURSDAY, MARCH 3, 2005

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:31 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Conrad Burns (chairman) presiding.
    Present: Senators Burns, Stevens, Cochran, Bennett, Dorgan, 
and Feinstein.

                       DEPARTMENT OF AGRICULTURE

                             Forest Service

HON. MARK E. REY, UNDER SECRETARY FOR NATURAL RESOURCES 
            AND ENVIRONMENT
ACCOMPANIED BY:
        DALE N. BOSWORTH, CHIEF
        HANK KASHDAN, DIRECTOR, PROGRAM AND BUDGET ANALYSIS


               OPENING STATEMENT OF SENATOR CONRAD BURNS


    Senator Burns. Good morning. We are very pleased to welcome 
Dale Bosworth, the Chief of the Forest Service, and Under 
Secretary for Natural Resources and Environment, Mark Rey this 
morning, and also Hank Kashdan, who is Director of Program and 
Budget Analysis. We thank you all three for coming down this 
morning.
    We all know that there has been significant belt-tightening 
in non-defense programs for this coming year, and of course the 
Forest Service budget request we are reviewing today is 
currently an example of that. The President's budget request of 
$4.065 billion for non-emergency discretionary appropriations 
represents a cut of 5.8 percent compared to the 2005 level of 
$4.239 billion.
    I know that this budget climate requires some tough 
choices, but some of the proposed program cuts have us a little 
bit troubled up here. For example, funding for construction and 
maintenance has been decreased by $134 million, roughly 26 
percent, compared to current levels. This is hard to understand 
given the Forest Service's own estimates that there is more 
than $8 billion in backlog of maintenance work on the national 
forests.
    Funding for State Fire Assistance has also been decreased, 
by over $22 million, which has almost cut in half the number of 
communities in which the Forest Service can provide technical 
assistance and grants for equipment. These local fire 
departments are often the first to respond to wildland fires. 
They provide a vital help to the Forest Service and the 
Department of the Interior.
    Also, I am concerned about the $29.5 million cut in Forest 
Health Programs in State and Private Forestry. We have millions 
of acres in our Nation's forests that are infested with insects 
and diseases like the western bark beetle, the southern pine 
beetle, and the gypsy moth. The dead trees that result from 
these pests add to our already excessive fuel loads we have on 
our forests. Reducing this program affects the agency's ability 
to monitor and eradicate these pests and diseases.
    On the other side of the ledger, some programs receive 
significant increases in the proposed budget request. These 
include: Research, $9 million; Forest Legacy, $22.8 million; 
hazardous fuels, $19 million; and Wildland Fire Suppression, 
$51.6 million. I think we will all be interested in hearing 
from both of you how you formulated your 2006 budget and how 
you made the difficult decisions to allocate funding between 
the various programs.
    There is another issue that concerns me also, the 
skyrocketing cost of firefighting programs. The average annual 
cost for fire suppression in the Forest Service in the last 5 
years has been around $958 million. By way of comparison, in 
the 5 years prior to that it was only $352 million.
    These escalating costs force the Forest Service to borrow 
massive sums of money and have caused serious disruptions in 
the ongoing work of the agency. For fiscal year 2004, the 
committee was able to provide a special allocation of $400 
million to deal with these escalating costs and impacts of 
heavy borrowing. The last fire season was not a particularly 
bad one compared to what we have seen over the last few years, 
but you still needed to tap into those additional funds to pay 
for firefighting expenses.
    I would like to hear from both of you today on whether this 
special allocation proved effective in the past fire season, 
whether you believe that a similar mechanism is needed in the 
future, and how the agency has implemented several measures the 
committee included in the 2005 Interior bill to address rising 
fire suppression costs. These cost-saving measures include 
putting in place an independent panel to review the 
expenditures on large fires and devoting a full-time staff to 
analyzing the most efficient means to procure the hundreds of 
millions of dollars worth of supplies that are needed by the 
fire program each year.
    Finally, I am pleased to see that the agency has obtained a 
clean audit opinion of its books for the third consecutive 
year. You are to be congratulated on that, Chief. In addition, 
the agency was removed this year from the GAO's list of 
agencies at high risk of waste, fraud, and abuse. I 
congratulate you and your leadership in straightening up many 
of these problems that we had in the Forest Service, and I know 
you are doing much more in this area and hope to hear from you 
later today on that subject.
    I thank you for joining us today. We will have a lot of 
questions from this committee with regard to where we have cut 
and where we have added. We would enjoy listening to your 
reasoning for that. I thank you again for coming this morning, 
and now I yield to my good friend from North Dakota, Senator 
Dorgan.


              OPENING STATEMENT OF SENATOR BYRON L. DORGAN


    Senator Dorgan. Mr. Chairman, thank you very much.
    Let me also welcome the Chief and Mr. Rey. I think you have 
covered, Mr. Chairman, many of the interests that I have. I am 
very interested in hearing the rationale for the budget 
recommendations. I must say that in the area of capital 
improvement and maintenance, given what we know is the backlog 
and the really critical need to be funding these areas, I am 
very concerned about a 40 percent reduction in facilities, a 16 
percent reduction in roads, and in deferred maintenance and 
infrastructure improvement a 30 percent reduction--29.7 
percent.
    All of this begs the question, what are we going to do to 
address what we know are problems here and what we know 
requires us to continue to make investments to our forest lands 
and the property that allows the American people to enjoy our 
forest lands.
    So I am going to submit some questions as well at the end 
of this dealing with leafy spurge and some other weed issues 
that I am sure they would expect. Mr. Chairman, as you know, 
the Congressional Review Act issue is on the floor of the 
Senate beginning now dealing with the rule coming from USDA to 
allow the live importation of cattle from Canada. Although I 
believe a Federal judge in your State of Montana yesterday 
issued a stay on that issue, we will nonetheless have a 3-hour 
debate and a vote on the Congressional Review Act trying to 
overturn that rule. So I will at some moment leave to go 
participate in that debate after we hear the witnesses.
    But again let me thank you for holding the hearing and I am 
anxious to hear Under Secretary Rey and Chief Bosworth.
    Senator Burns. Chief? Who wants to lead off down there this 
morning?


                 SUMMARY STATEMENT OF HON. MARK E. REY


    Mr. Rey. I think that would be me.
    Senator Burns. Okay, lead.
    Mr. Rey. Thank you, Mr. Chairman and Senator Dorgan, for 
the opportunity to discuss the President's fiscal year 2006 
budget for the Forest Service. I am pleased to join Chief 
Bosworth in appearing before you today.
    As Chief Bosworth will discuss in a little more detail, 
this year marks the 100th anniversary of the Forest Service. As 
such, I think it is worthwhile to reflect on the fact that as a 
result of the agency's multiple use management actions over the 
past 100 years, the decline in forest land has stabilized and 
acres of forest land have increased in some areas of the 
Nation. Areas destroyed by wildfire have declined by 90 
percent, forest growth is exceeding harvest, tens of millions 
of acres of cut-over land have been reforested, and much of 
these areas have again been harvested and reforested. Finally, 
populations of important wildlife species have been restored 
from the brink of extinction which they faced 100 years ago.
    So the situation today is far different than it was 100 
years ago, as a result of 100 years of conservation 
stewardship.
    Let me touch on some of the issues that the Forest Service 
will be focusing on as we begin the second century. First, the 
health of our Nation's forests. The Healthy Forests Initiative 
and the Healthy Forests Restoration Act provide emphasis and 
new authorities necessary to protect communities and natural 
resources from the risk of catastrophic wildfire. The fiscal 
year 2006 budget for the Forest Service and the Department of 
the Interior together includes about $867 million to continue 
implementation of the President's Healthy Forests Initiative. 
This is an increase of $57 million from last year and a 
substantial increase over the authorization provided in the 
Healthy Forests Restoration Act Title 1 provisions.
    In fiscal year 2006, the Forest Service and the Department 
of the Interior land managing agencies will reduce hazardous 
fuels on 4.3 million acres of Federal land, an increase of 
nearly 300,000 acres from fiscal year 2005, which will be an 
all-time record achievement as compared to about a million 
acres treated annually during the years of the decade of the 
1990s.
    Now, as you look at our fiscal year 2006 request for the 
Healthy Forests, you are going to find that the program is 
oriented more heavily toward Federal than non-Federal lands, 
and that emphasis exists for three reasons. First of all, we 
are the only ones who can and will treat Federal lands. We are 
the only governmental entity that will do that.
    Second, by and large the Federal lands are in worse shape 
from a fuels standpoint than non-Federal lands. Third, there 
are other programs with, in some cases, more effective delivery 
mechanisms to provide assistance beyond that which we can 
provide to our non-Federal partners to assist in firefighting 
and hazardous fuel reduction processes.
    I would also note that the Forest Service will focus two-
thirds of its treatments in the wildland-urban interface to 
protect communities, in accordance with the priorities set in 
the fiscal year 2006 request.
    While the effective treatment of hazardous fuels provides 
the long-term protection of communities and natural resources 
from the threat of catastrophic wildfire, the agency must also 
continue to address fire preparedness. The Forest Service and 
the Department of the Interior will maintain sufficient 
readiness resources to suppress more than 98 percent of 
wildfires on initial attack. As a result of the reengineering 
of our fleet of aviation assets in advance of the fiscal year 
2004 fire season, the Forest Service and the Department of the 
Interior maintained--actually exceeded--the success rate from 
previous years in suppressing fires on initial attack. In 2003, 
for instance, we were successful in extinguishing 98.3 percent 
of ignitions on initial attack. In fiscal year 2004, we were 
successful in extinguishing 99 percent of ignitions on initial 
attack. This meant 70 fewer escapements, with an average 
suppression savings of about $20 million. So our reengineered 
aviation fleet stood us in good stead.
    As the chairman correctly noted, the money for suppression 
is up this year as compared to last year. As we have in 
previous years, we have budgeted the 10-year average, which 
continues to increase. That accounts for that increase in the 
2006 request.
    Let me talk a little bit now about Forest Service 
organizational efficiency, or operational efficiency. In 
response to concerns about agency accountability and 
management, the Forest Service has been diligently working to 
improve its financial and program management. The agency's 
implementation of new planning rules, for instance, is expected 
to significantly reduce both the time and cost to amend or 
revise land and resource management plans.
    Another very important efficiency initiative contained in 
the President's budget would enable the agency to more 
effectively manage its facilities. Presently the agency has 
over 40,000 facilities in its inventory. That is significantly 
more than we need and it averages substantially more than one 
building per employee. Legislation proposed as part of the 
budget request would authorize the sale of unneeded facilities 
for fair market value and the use of sale proceeds to address 
our maintenance backlog. That, we believe, is directly 
responsive to the reductions that we have suggested in 
maintenance programs.
    In addition, the legislation would provide for the 
establishment of a working capital fund for facility 
maintenance that will assess programs that use facilities for 
the maintenance of those facilities.
    In response to the President's management agenda, the 
Forest Service is becoming more efficient in how it performs 
administrative support. By the end of 2005, the agency will 
have completed its implementation of a new information 
technology support organization and the centralization of its 
financial management and functions. In 2006, the agency will 
centralize its human resource management activities. Combined, 
these three efforts will reduce overhead expenses by $91 
million annually, and that is money that can be saved and 
thereafter reprogrammed for on-the-ground management activity.
    As the chairman noted, in recognition of the agency's 
commitment to sustain an effective financial management, the 
Government Accountability Office removed the Forest Service 
from its high-risk list. The GAO action was a direct result of 
three successive clean audits, the first three in the agency's 
history, and the demonstrated commitment of the administration 
to implement organizational changes that will ensure the Forest 
Service's ability to sustain clean audits into the future.


                           PREPARED STATEMENT


    I look forward to working with the committee and the 
Congress to enact the President's fiscal year 2006 budget 
request. After Chief Bosworth is done, we would be happy to 
respond to your questions.
    [The statement follows:]

                 Prepared Statement of Hon. Mark E. Rey

    Mr. Chairman, Senator Dorgan, and members of the Subcommittee, 
thank you for this opportunity to discuss the President's fiscal year 
2006 Budget for the Forest Service. I am pleased to join Chief Bosworth 
in appearing before you today. In my testimony, I will discuss two main 
issues. First, I will focus on priorities for the Forest Service as it 
moves into its second century of fulfilling its mission, including the 
role that the President's Healthy Forests Initiative (HFI) holds in 
that mission. Second, I will discuss the reforms and efficiency actions 
the agency is employing to deliver its mission more efficiently.
    As we move through the process of enacting the fiscal year 2006 
Budget, all of us in the Executive Branch, like all of you in Congress, 
are well aware of the challenges faced in funding the priorities of the 
Nation. The President's proposed budget for the Forest Service 
addresses key priorities, makes critical tradeoffs, and demands 
efficiency in delivery of programs. I look forward to working with you 
to enact the President's budget for the Forest Service.

                MOVING FORWARD--A NEW CENTURY OF SERVICE

    As Chief Bosworth will also discuss, this year marks the 100th 
anniversary of the Forest Service. To give you a sense of how the 
Forest Service plans to move forward, I will briefly review the mission 
adopted by the Forest Service in 1905 when it was formed, and how its 
response to the national issues in the coming century are, for the most 
part, similar.
    The 1905 mandate given the Forest Service involved responding to 
the degradation of watersheds and the substantial loss of forests and 
wildlife. The agency began taking important actions to conserve 
America's resources, including the closing of public domain lands and 
reserving the remaining public lands for protection and management; 
promoting the conservation and productivity of forests and grasslands 
regardless of ownership; acquiring scientific knowledge on natural 
resources management; improving management and productivity of all 
agricultural lands and forests; and adopting and enforcing wildlife 
conservation laws. As a result of the agency's actions over the past 
100 years of multiple-use management, the decline in forestland has 
stabilized and increased in some areas of the Nation. Areas destroyed 
by wildfire have declined by 90 percent. Forest growth is exceeding 
harvest. Tens of millions of acres of cutover lands have been 
reforested and much of these areas have again been harvested and 
reforested. Finally, populations of important wildlife species have 
been restored from the brink of extinction.
    In the coming century, the Forest Service must focus on restoring 
the health of watersheds, increasing recreational opportunities, 
providing clean water, establishing healthy wildlife and fish 
populations, and protecting communities and resources from the risk of 
catastrophic wildfire. The agency must accomplish this while providing 
minerals and forest products to meet the increasing demands of the 
nation. The President's emphasis on healthy forests makes sustainable 
production of products an integral aspect of improving forest health.

                       HEALTHY FORESTS INITIATIVE

    The HFI and the Healthy Forests Restoration Act provides emphasis 
and new authorities necessary to protect communities and natural 
resources from the risk of catastrophic fire. The fiscal year 2006 
budget for the Forest Service and DOI includes about $867 million to 
continue implementation of the President's HFI, which is an increase of 
$57 million from last year. This amount includes a request for $492 
million in hazardous fuels funding and the planned expenditure of an 
additional $375 million in other habitat management activities that 
will reduce the risk of wildfire. In fiscal year 2006, the Forest 
Service and the Department of the Interior (DOI) will reduce hazardous 
fuels on 4.3 million acres, an increase of nearly 300,000 acres from 
fiscal year 2005, itself an all-time record.
    The Forest Service will focus two-thirds of its treatment in the 
wildland urban interface (WUI) to protect communities. Protecting 
communities from the risk of wildfire can be accomplished by activities 
that result in the production of forest products and the protection and 
enhancement of watersheds and wildlife. For example, the Forest Service 
has worked closely with communities to complete over 600 Community 
Wildfire Protection Plans that identify the local strategies necessary 
to protect communities and promote multiple-use management activities.
    The efficient expenditure of Federal funds requires the agency to 
develop appropriate incentives that will make the use of forest 
products an integral aspect of the hazardous fuels reduction. The 
Forest Service will make maximum use of the stewardship contracting 
authority and the new authorities provided by the Healthy Forest 
Restoration Act to make treatment of hazardous fuels more efficient. In 
furthering this objective, the President's Budget includes a $10 
million investment to improve facilities at the Forest Product 
Laboratory (FPL) in Madison, Wisconsin that will increase research in 
creating new products from forest biomass.

                    EFFICIENT RESPONSE TO WILDFIRES

    While the effective treatment of hazardous fuels provides the long-
term protection of communities and natural resources from the threat of 
catastrophic wildfire, the agency must also continue to address fire 
preparedness. The Forest Service and DOI will maintain sufficient 
readiness resources to suppress more than 98 percent of wildfires on 
initial attack. This represents the same approximate level of readiness 
that has occurred over the past several years. Being prepared to manage 
and suppress wildfire requires continued emphasis on improved and 
efficient use of equipment and personnel. As a result of reengineering 
the fleet of aviation assets in advance of the fiscal year 2004 fire 
season, the Forest Service and DOI maintained the success rate in 
suppressing fires on initial attack. Increased emphasis on the using 
helicopters instead of large fixed-wing air tankers enabled better pre-
positioning of aviation assets in areas where the greatest danger 
existed and the more accurate application of retardant. The Forest 
Service is currently completing a long-term aviation strategic plan 
that will address the wise use of fixed-wing and helicopter assets, 
which we fully expect to further improve efficiency.
    Effective use of suppression assets requires close coordination 
among Federal, State, and local agencies. Under the oversight of the 
Wildland Fire Leadership Council, Federal, State, and local resources 
are being more effectively coordinated in response to wildfires. I am 
pleased with the coordination that has resulted through this effort.
    Although the fiscal year 2004 fire season was relatively mild, the 
agency still expended $726 million for wildfire suppression. The 
President's Budget continues a focus on reducing wildland fire 
suppression costs and provides suppression funds at the ten-year 
average cost adjusted for inflation. Additionally, the Budget contains 
incentives for reducing costs through the allocation of funds to the 
field and authorizing use of unobligated balances for hazardous fuel 
treatments.

                 FOREST SERVICE OPERATIONAL EFFICIENCY

    In response to concerns about agency accountability and management, 
the Forest Service has been diligently working to improve its financial 
and program management. The agency's implementation of a new planning 
rule is expected to significantly reduce both the time and cost to 
amend or revise land management plans. In addition, the rule provides 
for a pre-decisional objection process that replaces a less efficient 
appeal process. With the objection process, the public has an 
opportunity to make their concerns known to a higher-level official, 
and the agency then has the opportunity to make appropriate adjustments 
before the plan is approved. The appeal process, which was after plan 
approval, required any necessary or appropriate changes to be made 
through further planning processes.
    Another important efficiency initiative contained in the 
President's Budget will enable the agency to more effectively manage 
its facilities. Presently, the agency has over 40,000 facilities in its 
inventory--significantly more than it needs, averaging substantially 
more than one building per employee. Legislation proposed as part of 
the budget will authorize the sale of unneeded facilities for fair 
market value, and the use of sale proceeds to address the maintenance 
backlog. In addition, the legislation will provide for the 
establishment of a working capital fund for facility maintenance that 
will assess programs that use facilities for the maintenance of those 
facilities. Local line officers will need to assess the number of 
facilities that are needed and the necessary operating funds to perform 
facilities maintenance--this creates the incentive to keep the number 
of facilities to a minimum. The rest will be conveyed at fair market 
value. It is anticipated this action will reduce the agency deferred 
maintenance backlog by 25 percent by fiscal year 2010.
    In response to the President's Management Agenda, the Forest 
Service is becoming more efficient in how it performs administrative 
support. By the end of fiscal year 2005, the agency will have completed 
its implementation of a new information technology support organization 
and the centralizing of its financial management. In fiscal year 2006, 
the agency will centralize its human resource management activities. 
Combined, these three efforts will reduce overhead expenses by $91 
million annually. I appreciate the support Congress has shown as the 
Forest Service implements these reforms.
    Even with these improvements, however, inefficiencies increase 
program delivery costs and are impeding Forest Service performance. The 
Administration proposes additional reforms to enhance Forest Service 
efforts to improve its accountability and focus on measurable results 
in the management of our national forests. These reforms will 
significantly reduce overhead, business management, and other indirect 
costs to improve efficiency and program delivery.
    In recognition of the agency's commitment to sustained and 
effective financial management, I am very pleased that the Government 
Accountability Office (GAO) removed the Forest Service from its ``High 
Risk List.'' The GAO's action was a direct result of three successive 
``clean audit'' opinions and the demonstrated commitment of the 
Administration to implement organizational change that will ensure the 
Forest Service's ability to sustain future clean audits.

                               CONCLUSION

    A ``clean audit'' opinion is the minimum the public should expect 
from the Forest Service. Just like America's citizens, a Federal agency 
should be able to balance its checkbook. Further, the agency must 
demonstrate that it performs its mission as efficiently as possible. 
The President's Management Agenda is creating the framework for 
efficiency. I believe the Forest Service has responded well and is 
demonstrating its commitment to the efficient delivery of natural 
resource management on Federal and non-Federal forest and rangelands. I 
look forward to working with Congress to enact the President's fiscal 
year 2006 Budget.
    I would be pleased to answer any questions.

    Senator Burns. Chief, do you have an opening statement you 
would like to make?
    Mr. Bosworth. Yes, I would.
    Senator Burns. Thank you. Proceed.

                 SUMMARY STATEMENT OF DALE N. BOSWORTH

    Mr. Bosworth. Mr. Chairman and Senator Dorgan: I also am 
pleased to be here to discuss the President's fiscal year 2006 
budget for the Forest Service. As Under Secretary Mark Rey 
mentioned, it is our centennial year in the Forest Service, 100 
years of caring for the land and taking care of the national 
forests and grasslands and trying to serve the American people. 
It gives us a unique opportunity this year, I believe, to work 
with many of our partners and collaborators and critics to 
reflect a bit on the past, but more importantly to be looking 
to the future, to the next century of service. Together, we can 
figure out what kind of changes we need to make so that we will 
be able to continue to provide top-quality service to the 
American people in managing their forests.
    In my opening remarks, I would like to touch on four themes 
very briefly. Those are: the budget, the tight, austere budget 
that we are in; some efforts to improving efficiency under way; 
better visibility and collaboration for the agency; and our 
efforts at integrating our work more effectively.
    So first, in regards to the budget situation, we at the 
Forest Service recognize that we have a responsibility to help 
reduce the deficit, which results in some very difficult 
choices that we need to make. There are tradeoffs obviously 
that come with those choices, and we have worked hard at 
identifying those tradeoffs and trying to mitigate those so 
that we can continue to produce high-quality services.
    We have kept our focus on the top priorities. The top 
priorities are reducing the risk of catastrophic wildfire and 
continuing to improve forest health conditions.
    Now, in terms of efficiency, for the 4 years that I have 
been in this job, we have been focusing on trying to get more 
and more dollars, and a higher percentage of our dollars, to 
the ground where the job can get done. There are two areas of 
efficiencies that we keep focusing on. One is in natural 
resource management, getting more efficient with the National 
Environmental Policy Act, developing environmental impact 
statements, and our consultation efforts with Fish and Wildlife 
Service and NOAA Fisheries. You have given us a lot of help 
through the Healthy Forests Restoration Act. The Administration 
has helped with the Healthy Forests Initiative. We have 
stewardship contracting that you were key to getting us a pilot 
and then the full authority. Those things have helped in that 
area.
    The other aspect of efficiency is in our own internal 
operations, our business management practices. We have been 
focusing on improving them and the result is, as has been 
mentioned before, that we are no longer on the high-risk list 
from GAO and we have had several clean audit opinions.
    We would be unable to sustain those clean audit opinions if 
we did not make some significant changes in how we are 
organized. Therefore, we have opened up a service center for 
financial management in Albuquerque, New Mexico, and we are in 
the process of moving people to that service center. We are 
going to be doing the same kind of efforts with information 
technology and we are also beginning the process of moving 
people to Albuquerque in our human resources area. We expect to 
reduce about 1,300 full-time equivalents, FTE's, when we 
complete all of our reorganization for the business management 
areas. We expect to save about $91 million a year when we are 
fully implemented.
    So those changes together will make a big difference in how 
we can deliver the services that people want. We are also 
making some reforms in facilities management and we will have 
some proposals regarding these reforms that we can discuss more 
if you wish.
    I believe that making these commitments and implementing 
these changes, although they are difficult for the 
organization, will result in a higher percentage of our dollars 
getting to the ground to get the work done.
    In the area of visibility and collaboration, we need to 
improve and to continuously improve our ability to work with 
the public in a very visible way. There are several areas. 
Probably the first would be in the areas of partnerships. We 
have done a good job in partnerships in my view, but we have 
great opportunities to improve that.
    In fiscal year 2004, we had about $500 million worth of 
work that we got from partners, both in cash and in-kind work, 
doing things on the ground. That was matched with about $500 
million of our funds, totaling $1 billion of work on the ground 
that we were doing through partnerships. We can increase that.
    Our new planning rule that just came out in December 
requires independent audits at the end of the year for each 
forest through an Environmental Management System. That will 
allow people to know whether or not we are doing what we say we 
will do and whether or not we are getting the results on the 
ground in the way that we said we would do.
    We will increase our monitoring and that will allow us to 
make some adjustments based upon what we learn from the 
monitoring and what we learn through those independent audits. 
I believe that will increase our public involvement and it will 
also increase the visibility of our work.
    In the area of wildfire, wildfire protection agreements 
that we have in communities help us to work better together 
with the communities. We have wildfire protection agreements 
with over 600 communities now.
    The Federal Lands Recreation Enhancement Act allows for 
recreation advisory councils. Once again, that will be an 
opportunity for us to work closer with the public in 
determining if, when, where, and how we should be collecting 
fees.
    As far as integrating our work to provide for healthy 
forests, in fiscal year 2006 the Forest Service will reduce 
fuel hazards by 2.8 million acres. About 1 million acres of 
that will be accomplished with non-hazardous fuels funds, from 
things like wildlife habitat improvement dollars, timber stand 
improvement dollars, and sale of forest products dollars. The 
idea is that if we place those projects in the right places, we 
can accomplish both the timber sale objectives as well as fuels 
treatment objectives, or habitat improvement objectives as well 
as fuels treatment objectives.
    So our line officers are now achieving multiple benefits 
and multiple goals by focusing integrated treatments in the 
right places.
    We believe that by integrating work, we will improve our 
efficiency and we will in the end accomplish more work on the 
ground.

                           PREPARED STATEMENT

    So in closing, I am looking forward to working with you. I 
appreciate this opportunity to discuss our budget. Again, it is 
a tight budget and we expect to deliver our programs by 
focusing on priorities, by improving our efficiency, and by 
integrating our work. I would be happy to answer any questions 
you might have. Thank you.
    [The statement follows:]

                 Prepared Statement of Dale N. Bosworth

                              INTRODUCTION

    Mr. Chairman, Senator Dorgan, and members of the Subcommittee, 
thank you for this opportunity to discuss the President's fiscal year 
2006 Budget for the Forest Service. I am privileged to be here with you 
today. I want to express my appreciation for the support this 
Subcommittee has given the Forest Service to improve the health and 
sustainability of the nation's forests and rangelands.
    I am pleased to discuss the President's fiscal year 2006 Budget 
request for the Forest Service, which totals $4.07 billion in 
discretionary funding. It emphasizes the top priorities of the agency, 
especially the President's Healthy Forests Initiative, that are 
essential to improving the sustainability and health of the nation's 
forests and rangelands. First, I will discuss the future direction of 
the Forest Service. Then, I will describe our efforts to reduce 
wildfire threats and costs. For the remainder of my testimony, I will 
highlight programs and legislative proposals that reflect new 
directives or shifts in emphasis for fiscal year 2006.

                 FUTURE DIRECTION OF THE FOREST SERVICE

    This year the Forest Service celebrates its 100th anniversary. We 
are commemorating a century of caring for America's national treasures. 
One hundred years ago, America's first forester, Gifford Pinchot, 
recognized that ``our responsibility to the Nation is to be more than 
careful stewards of the land, we must be constant catalysts for 
positive change.'' This advice was true in 1905 and remains a guiding 
light now in 2005. Change is inevitable. This is why the Forest Service 
is committed to being a catalyst for positive change into our next 
century of service.
    Congress created the Forest Service as part of a national strategic 
response to the degradation of watersheds and the substantial loss of 
forests and wildlife that was occurring at a rapid rate during the last 
half of the 19th century. Let me briefly reflect on how much has 
changed since the Forest Service was established in 1905. During the 
last half of the 19th century, the U.S. population had more than 
tripled and forests were being cleared for agriculture at an average 
rate of 13.5 square miles per day. Wildfires were burning 20 to 50 
million acres a year between 1880 and 1930. These fires, as well as 
unregulated hunting and logging, were threatening long-term economic 
and environmental values. In fact, these activities were tolerated and 
even encouraged in the name of economic development, but it had become 
increasing clear that what was going on was unsustainable.
    Establishing the Forest Service in 1905 created a direct response 
to these threats. This response has been successful. The decline in 
U.S. forestland has stabilized and forest acreage is now about what it 
was in 1905. In fact, forestland in the Northeast has actually 
increased by 26 million acres since the Forest Service was established. 
Areas burned by wildfire have declined 90 percent since the 1930s. 
Forest growth has exceeded harvest since the 1940s. Tens of millions of 
acres of cutover lands that existed in 1905 have been reforested. Many 
of these are now mature forests whereas other reforested lands have 
been harvested a second time and are starting a new cycle. While some 
wildlife species continue to face threats, many others that were 
greatly depleted or nearly extinct in 1905 have increased dramatically, 
such as Rocky Mountain elk and wild turkey.
    The Forest Service has played a key role over the past 100 years in 
creating the changes that have touched our landscapes. In January, the 
agency convened a Centennial Congress in Washington D.C. to discuss 
these changes and the future 100 years of the Forest Service. Delegates 
to the Congress examined issues ranging from engaging the public in 
land management decisions to rewarding forest owners for carbon 
sequestration, delivering clean water, and providing other multiple-use 
benefits. We discussed how American society shifted from rural and 
agrarian to urban and industrialized. This in turn influenced the mix 
of uses and values the public seeks from its public lands. Today we see 
increased demands for recreation, greater consumption of natural 
resources, and mounting pressure on public lands from new development. 
Yet, at the same time, the public is expressing greater concern over 
the need for sustainable resource management.
    This historical shift places us in a conservation era that focuses 
on ecological restoration and long-term sustainability. We must manage 
the land for long-term ecosystem health and sustainable uses while 
meaningfully engaging the public in our decision-making. Land managers 
must be adaptable, innovative, and welcoming of new information, ideas, 
and perspectives. In the end, to be that constant catalyst for positive 
change in this era, the Forest Service must be more collaborative, 
accountable, and efficient in managing our natural resources.
    In the face of constant change, Americans must examine their 
consumption choices as an important aspect of sustainable development 
and ecosystem health. The United States consumes more wood than any 
other country. We also consume far more timber than we produce. The 
Forest Service has an opportunity to promote sustainable wood 
production and consumption. For example, Americans build roughly 1.5 
million single-family houses each year, which consume roughly 22 
billion board feet of lumber. At the same time, we lose approximately 
17 percent of this amount to fire each year, which is equivalent to 
250,000 new houses. We also lose a significant amount to insects and 
diseases. If we could salvage some of this lost wood, without 
compromising ecosystem health, we could help minimize our need to 
import wood. When imports encourage illegal or unsustainable 
environmental practices abroad, then there's a problem. This is why the 
Forest Service is assisting the State Department with implementing the 
President's initiative against selling illegal logs. The goal of the 
initiative is to combat illegal logging and the sale of illegally 
harvested timber products. But, minimizing consumption from foreign 
forests is only part of the equation. If we want healthy and resilient 
ecosystems and communities, then we need intelligent consumption 
balanced with sustainable management of our nation's forests and 
rangelands.

  WE ARE IMPLEMENTING A LONG-TERM STRATEGY TO REDUCE WILDFIRE THREATS

    Restoring fire-dependent ecosystems is the long-term solution to 
reduce the harmful effects of catastrophic wildfire. Restoration work 
involves eliminating the buildup of hazardous fuels so that natural 
fire regimes may be reestablished. The results of this effort may, in 
some cases, take several years before we begin to see significant 
changes in the way fire burns across the landscape. The President's 
Healthy Forests Initiative (HFI) is helping us tackle the process 
gridlock that was impeding the restoration of fire-adapted ecosystems, 
including the treatment of hazardous fuels.
    In support of the HFI, the President's Budget dedicates $281 
million to treat 1.8 million acres for hazardous fuels. An additional 1 
million acres will be protected as part of other natural resource 
management activities. Since 2001, Federal land management agencies 
have treated 11 million acres of hazardous fuels on public lands. The 
Forest Service and the Department of the Interior (DOI) agencies 
exceeded our program goals by accomplishing 2.9 million acres of 
hazardous fuel reduction for 2004, including 1.6 million acres in the 
Wildland-Urban Interface (WUI). Fifty-seven percent of these treatments 
were in the WUI.
    Another part of our long-term restoration strategy is to treat the 
right acres, in the right place, at the right time. Consistent with the 
President's recent Executive Order on Cooperative Conservation, the 
Forest Service is working closely with State forestry agencies and 
other partners to coordinate fuel treatments and to provide technical 
and financial assistance to reduce hazardous fuels on State and private 
lands. We are also enlisting the assistance of local communities. The 
Forest Service is working with coalitions of interested citizens to 
identify those areas in greatest need of hazardous fuel treatments. 
This collaborative effort includes helping communities complete 
Community Wildfire Protection Plans (CWPP). To date, over 600 such 
plans have been completed or are in progress across the nation. The 
number of plans will continue to grow as partnerships are formed and 
high-risk areas are identified. A consistent and systematic interagency 
approach will have a large-scale impact on reducing the size and 
severity of catastrophic wildfires. In addition, in fiscal year 2005, a 
handful of pilot projects supported by our Research program will test 
the strategic placement of fuel treatments on the behavior and effects 
of wildland fires. If this is effective, we will be better positioned 
to design and locate treatments to make a difference in the size, 
behavior, effects, and costs of fires. This integrated approach will 
maximize our investment in fuel treatments and allow us to build more 
integrated fuel treatment strategies with our partners.
    The expanded stewardship contracting authority provided by Congress 
is another key feature of the President's Healthy Forests Initiative 
goal of reducing catastrophic wildfire threats by making treatment of 
the land more cost-effective and collaborative than ever. For example, 
it allows contractors to make economic use of materials removed during 
restoration or thinning projects. This incentive promotes efficient 
land management practices and creates business opportunities in local 
communities. Using the stewardship and general contracting authority 
that Congress included in the Tribal Forest Protection Act (Public Law 
108-278) enacted last summer, Indian tribes have the opportunity to 
enter into agreements with the Secretaries of Agriculture and the 
Interior to achieve additional fuels reduction work on federal lands 
adjacent to their reservations. We are working with the Bureau of Land 
Management and Tribes on implementation guidelines for the Act.
    In all, we have a multi-faceted approach to tackling wildfire 
threats. Stewardship contracting, collaborating with partners, and 
strategically treating hazardous fuels are just a few examples. With 
your continued support of our hazardous fuels program and the HFI, we 
can have a long-term impact on minimizing the threat of catastrophic 
wildfire.

 WE ARE LOOKING FOR NEW WAYS TO REDUCE WILDLAND FIRE SUPPRESSION COSTS

    In addition to reducing wildland fire threats, we must also reduce 
fire suppression costs. The President's Budget proposes a $51.6 million 
increase above the fiscal year 2005 enacted amount for wildland fire 
suppression. This reflects the most recent 10-year average for 
suppression costs, which are on an upward trend. Despite going into the 
2004 fire season on the heels of continuing drought and dry fuel 
conditions, the fire activity resulted in a below-average year across 
most of the Nation. Alaska, the lone exception, experienced its worst 
fire season on record with 703 fires and 6,517,200 acres burned. The 
lower 48 States experienced 61,873 fires that burned 1,394,144 acres. 
We attribute this less severe fire season to more favorable weather, 
fewer dry lightning storms, and to achieving initial attack success 
rates of over 99 percent.
    Despite this relatively ``good'' fire season, the agency still 
expended $726 million on wildland fire suppression. The Forest Service 
will continue to focus on reducing wildland fire suppression costs 
through incentives for efficient funds management, effective supply 
chain management, and rapid demobilization of incident response 
resources. The President's Budget provides additional incentives for 
reducing suppression costs by allocating suppression funds to the field 
and authorizing use of unobligated wildfire suppression funds for 
hazardous fuels treatment. Thus, a line officer's success in reducing 
suppression expenses can be rewarded through the availability of more 
funds to reduce hazardous fuels. Additionally, the Forest Service will 
work with the independent panel that was established by Congress to 
assess the agency's management of large wildland fires. The panel's 
first report on the fiscal year 2004 fire season will be completed 
soon.

        RESEARCH GUIDES OUR DECISIONS AND DELIVERS NEW SOLUTIONS

    In addition to these efforts, hazardous fuels reduction is critical 
to minimizing wildland fire suppression costs. Creating market-based 
incentives for the removal of this ``biomass'' is an important aspect 
of the agency's Forest and Rangeland Research program. The President's 
budget includes a $10 million request for capital improvements in our 
Forest Products Lab, which has been a world leader in developing 
innovative products made from wood and other forest materials. 
Maximizing use of forest biomass can complement forest management, 
provide jobs in local communities, and offer a renewable energy source 
for our country. The agency's Research program is critical for 
developing new technologies that make economic use of unmarketable and 
other salvageable forest materials while meeting our resource 
management needs. For example, the Lab developed a new composite 
material for residential siding made of recycled plastic and wood from 
juniper and salt cedar, two tree species that contribute to hazardous 
fuel loads in the Southwest. Biomass utilization offers a host of 
opportunities, many of which are yet to be discovered. For this reason, 
we are pleased that the President's Budget includes such an important 
investment in our country's future.
    The President's Budget also includes a $12.8 million boost in 
research to fund the Forest Inventory and Analysis (FIA) program to 
cover 100 percent of America's forests with an annual inventory. The 
FIA is the Nation's only forest census, which has been keeping track of 
the heartbeat and other vital statistics of America's forests for 
roughly 75 years. FIA is the only program delivering continuous and 
comprehensive assessments of our forests in a nationally consistent 
manner across all land ownerships. Policy and programmatic decisions 
hinge on what the census tells us about forest health. The FIA's up-to-
date monitoring, coupled with cutting-edge research and our State and 
Private Forestry programs, also play a key role in addressing the 
emerging threat of invasive species. The FIA is critical to assessing 
our current progress in implementing our Invasive Species Strategic 
Plan. Moreover, FIA information will feed into the two national Early 
Warning System Centers that we are establishing in fiscal year 2006 to 
identify, detect, and rapidly respond to environmental threats, such as 
invasive species, diseases, insects, and fire.

  OUR NEW PLANNING PROCESS IS MORE FLEXIBLE, EFFICIENT, AND RESPONSIVE

    Our future forest planning efforts will focus more on emerging 
threats, such as invasive species, wildfires, and unmanaged recreation. 
To meet these challenges, the Forest Service recently published a 
planning rule that offers greater flexibility for land managers. The 
rule establishes a dynamic planning process that is less bureaucratic, 
emphasizes science, and provides more opportunity for public 
involvement earlier in the planning stages. Moreover, land management 
plans must be more strategic, transparent, timely, and cost-effective.
    This new planning process directs each forest and grassland unit to 
adopt an Environmental Management System (EMS), which is an adaptive 
management tool designed to provide feedback to land managers on all 
phases of land decisions. A key feature of the EMS requires independent 
audits of our agency's performance at 5-year intervals to ensure that 
we are achieving the plan's goals. The EMS will ground our decisions in 
science and strengthen our accountability.
    Public involvement in our decisions also makes us more accountable. 
This is why the rule requires opportunities for public involvement at 
four key stages in the planning process. The rule also establishes a 
pre-decisional objection process that replaces our agency's costly and 
lengthy appeals process. These new features encourage the public to 
participate with land managers in the early planning stages to resolve 
any issues and concerns. This will be less adversarial than in the past 
where some people waited until after a final decision to make their 
concerns known by filing an appeal. Under the old rule, it typically 
took 5 to 7 years to revise a 15-year land management plan, and in the 
case of one forest, cost as much as $5.5 million. Under the new rule, a 
plan revision will take approximately 2 to 3 years and cost much less.

        WE CAN REAP MULTIPLE BENEFITS FROM PRESERVING OPEN SPACE

    The President's Budget dedicates $80 million to the Forest Legacy 
Program, which will protect an estimated 300,000 priority acres in 
fiscal year 2006. This program is an excellent tool for reducing the 
loss of open space and saving working forests. This program is 
successful, in part, because it places the important decisions of how 
and where to protect open space in the hands of States, local 
governments, individual landowners, and non-profit partners. Protection 
of open space serves multiple purposes that go beyond the obvious 
benefit of supporting biodiversity, maintaining scenic beauty, and 
preventing conversion of land to undesirable uses. More open space 
directly encourages and supports working forests, working farms, and 
working ranches. This is a value-added benefit that makes it profitable 
to maintain open space. We need to maintain ``working forests''- those 
that are managed to produce economic and environmental benefits. Study 
after study shows that conservation of forests is one of the best 
methods for keeping our drinking water safe and clean.
    Another key to this program's success is that it leverages millions 
of dollars at the local level. For example, each Federal dollar 
typically leverages an equal amount in non-Federal contributions. Since 
1992, a $197 million Federal investment has protected over $381 million 
of land value, encompassing over 1 million acres through conservation 
easements and land purchases. We hope that you will continue to support 
this important program.
    The President's Budget also proposes an increase of $5 million for 
the Forest Stewardship Program, which provides planning and management 
assistance to thousands of America's private forest owners. Federal 
funds are leveraged by contributions from State forestry agencies that 
deliver this program. The improved forest management that results from 
this program benefits all Americans by providing a full range of 
ecosystem services, including clean water and air, habitat for 
wildlife, and forest products.

 WE HAVE NEW APPROACHES TO TACKLE THE PUBLIC'S GROWING RECREATION NEEDS

    National forests and grasslands are an integral connection between 
the American public and their desire to experience the great outdoors. 
The Forest Service hosts more than 200 million recreation visitors each 
year. Reconciling this demand within the limits of maintaining 
sustainable ecosystems is becoming a greater challenge each year. To 
address this issue, we are looking at a variety of new approaches to 
keep us in the forefront of meeting visitors' expectations of having 
safe and enjoyable recreational experiences. Last year, President Bush 
signed into law the Federal Lands Recreation Enhancement Act. This Act 
allows the Forest Service to charge modest fees at recreation sites 
that can be used to help maintain and improve the recreational 
experience of our visitors. The vast majority of recreation sites and 
services will continue to be free for activities such as horseback 
riding, walking, hiking, and general access to national forests and 
grasslands. The Act also establishes citizen recreation advisory 
committees that will provide important input on implementation of the 
fee program. We look forward to working with these committees and 
Congress to ensure that the public is fully involved and fees are fair 
for the value received.
    In the past several years, I have noted that unmanaged recreation, 
particularly with respect to off-highway vehicle (OHV) use, is a major 
challenge to our national forests and grasslands. The age of Americans 
being able to drive anywhere on National Forest System lands has come 
to an end. Over the last 3 decades, ownership of OHVs in the United 
States has grown from 5 million to 37 million vehicles. National 
forests are experiencing an explosion of user-developed trails beyond 
our agency's capacity to manage or maintain. Some of these unauthorized 
trails are causing unacceptable resource damage. In response, the 
Forest Service recently published a proposed regulation on management 
of motor vehicle use on national forests. The regulation would require 
forests to work closely with local communities to designate roads, 
trails, and areas open to motor vehicle use and specify allowable use 
by vehicle class and time of year. Motor vehicle travel off of the 
designated system would be prohibited. The agency is currently 
developing the final rule, which is expected to be published later this 
year.

        WE NEED TO REVERSE THE TREND OF DETERIORATING FACILITIES

    Our backlog in deferred maintenance for our infrastructure 
continues to be a challenge. This backlog is especially critical for 
facilities that provide recreation opportunities to the public, as well 
as our administrative sites where employees work and provide services 
to the public. It is appropriate that we look for solutions beyond 
appropriations to tackle our deferred maintenance backlog. For example, 
this budget proposes a new incentive-based approach to reduce our 
maintenance backlog for administrative sites and visitor centers. 
Moreover, the President's Budget proposes new legislation that 
authorizes the Secretary of Agriculture to sell or exchange 
administrative sites that are no longer needed for National Forest 
System purposes. The legislation will facilitate the timely disposal of 
administrative sites and free up dollars to invest back in existing or 
replacement facilities. It will also provide for the use of a working 
capital fund for the performance of routine maintenance. These reforms 
will assist the agency in maintaining and improving the quality of its 
facility assets.

  WE HAVE MADE GREAT STRIDES IN PERFORMANCE AND FINANCIAL MANAGEMENT 
                             ACCOUNTABILITY

    The Forest Service will continue agency-wide efforts to improve 
performance and financial management accountability in fiscal year 
2006. We have already made significant progress toward this goal. I am 
proud to report that the Government Accountability Office removed the 
Forest Service from its ``high risk'' list because we achieved a third 
consecutive ``clean'' audit opinion and are implementing significant 
organizational changes that ensure sustainability in financial 
management. Not only is this an important accomplishment for our 
agency, but it demonstrates our serious commitment to make continued 
improvements in financial management, as well as build efficiency into 
other administrative areas that have been burdened with outdated 
policies and decentralized processes. While I am pleased with our 
financial management improvement, I must also acknowledge that 
attaining this milestone simply means that we are now balancing our 
checkbook--something the public should expect as the norm. Keeping the 
checkbook balanced will allow the agency to better focus on its natural 
resource management functions.
    Our Financial Management Improvement Project is moving forward as 
planned. Later this month, the new Albuquerque Service Center will be 
operational, with phased implementation throughout this fiscal year. 
This new center will provide financial and budgetary services to the 
agency using performance standards that focus on customer service, 
efficiency, and data quality. With full implementation of financial 
management reforms, the Forest Service anticipates that it will realize 
a $35 million in annual savings. Additionally, when other reforms are 
implemented, the annual savings will increase to $91 million.
    A key element of quality financial management is the ability to 
link funding and expenditures to the strategic goals of the agency. In 
response to the Budget and Performance Integration initiative in the 
President's Management Agenda and the Government Performance and 
Results Act, the Forest Service is presenting an improving performance-
based budget year after year. In fiscal year 2004, the Forest Service 
completed a new strategic plan. This planning blueprint has helped the 
Forest Service and its field units develop programs of work that 
address our natural resource needs while maximizing limited resources 
and improving performance accountability. The strategic plan was the 
driving force in making budget decisions and requests for fiscal year 
2006. With important system enhancements, the Forest Service will be 
able to provide project-specific information about fiscal year 2006 
expenditures with direct linkage to our strategic plan's goals and 
objectives.
    To ensure that the Forest Service's annual activities are 
appropriately aligned with its Strategic Plan, the agency is making 
effective use of the Program Assessment and Rating Tool (PART). The 
PART process has been used in the past to develop more effective 
performance measures and emphasis in programs, including wildland fire 
management, capital improvement and maintenance, Forest Legacy, and 
invasive species. Two additional programs will be evaluated in support 
of the fiscal year 2006 President's Budget.

                               CONCLUSION

    The President's Budget for fiscal year 2006 delivers funding for 
innovative approaches as well as long-standing programs that have 
served the land and the American public well. The President's Budget 
also demonstrates that the Forest Service must use incentive-based 
approaches to reduce costs and accomplish its mission. We must continue 
to work closely with Federal and non-Federal partners to leverage 
alternative funds to accomplish our program of work. As I said at the 
beginning of my testimony, we must move forward with a renewed interest 
in collaboration, efficiency, and accountability as we enter this new 
century of service. We must be rapid responders, but we must also 
respond to change with great care. After all, we are the trustees of 
America's greatest natural resources.
    Thank you for this opportunity to discuss the President's Budget. I 
look forward to working with you to implement our fiscal year 2006 
program and am happy to answer any questions you may have.

    Senator Burns. Thank you. Thank you a lot, Chief. We 
appreciate your statement. We appreciate your good work on the 
task. Of course we realize that we are on a tight budget up 
here also.

                                GRAZING

    I want to bring up one thing that still kind of concerns 
me. We talk about healthy forests and we talk about removal of 
fuels, and I think we have done a lot to move in that direction 
and we have accomplished a lot. I noticed in the budget that 
you cut $3.4 million out of your budget for processing of 
grazing allotments. Now, I want to remind our good friends 
this: Every place that we have grazing, we have less fires. I 
think the grazing permits can be thrown right in there with 
healthy forests or fuel or fire prevention and should be moved 
up in the priorities. Instead, we have given you categorical 
exclusion to help you increase and to deal with those permits.
    They are not moving any faster that I can see, and now we 
are cutting budget from it, which, I think, does a couple of 
things. The program keeps an industry alive, and it keeps your 
forest in a management-type mode where we can prevent fires and 
provide additional fuels reduction.
    I do not see you making that connection on how important 
this really is. It is a natural thing. It does not cost us 
anything. We, in fact, get a few dollars back for it.
    Mr. Bosworth. Mr. Chairman, the numbers that were 
calculated to show how many allotment management plans we would 
complete were calculated prior to the time that we had the 
opportunity to use categorical exclusions. Our expectation is 
that we would be able to increase significantly the number of 
allotment management plans each year, from about 400 probably 
up to around 750 allotment management plans each year, with the 
use of the categorical exclusion.
    So that would be about 300 additional each year for the 
next 3 years. If we are able to complete those even faster than 
the 3 years and we got the total of 900 completed that we have 
the authorization for, we would be back asking you for some 
additional help. But categorical exclusions are going to go a 
long ways toward achieving what you are concerned about, I 
believe.
    Mr. Rey. That reduction is a reflection of our expectation 
that our unit cost to do grazing lease renewals will be reduced 
slightly through the use of the categorical exclusion. So that 
was a reduction we took, not to reduce outputs, but in 
recognition of the fact that we could produce a higher level of 
outputs more efficiently, given a very tight budget.
    We do understand and appreciate that grazing plays an 
important role in fuels reduction. In fact, in some of our 
national forests, particularly the ones in the Los Angeles 
Basin, we let grazing leases out to maintain fuels levels in 
fuels breaks for that purpose. It is a fairly inexpensive way 
to maintain fuels at a certain level in a fuel break, and 
grazing animals help us in our fuels reduction and fire 
reduction risk purposes, with one exception. We had an 
escapement on a wildfire 2 years ago in the Angeles National 
Forest where one of our goats was indirectly involved, because 
it was an escapement from a pagan worship ceremony where they 
were sacrificing a goat and the fire got away. So in that case 
the goat did not help, but normally they do.
    Senator Burns. Well, I would think that maybe you would 
hang onto this $3.4 million and accelerate the number of 
permits that you could work. I would hope you could do that. 
But to cut back if you are more efficient--I do not have any 
problem with being efficient. Therefore, we ought to see the 
increased numbers of permits being worked and issued. That is 
what I am getting at.
    I would say, I got the biggest kick out of--I drove on the 
back side of the University of Montana a couple years ago and 
there were two big truckloads of sheep being unloaded out 
there. They were going up on Mount Jumbo. Well, these people 
standing around, these little environmental people who have 
been trying to get livestock off of public lands all these 
years, said: We found a new way to control leafy spurge and 
spotted knapweed, and we are paying the people that own the 
sheep to graze this off.
    I said: By golly, wish I had thought of that. I did not 
want to throw any dampness on what they were trying to do, but 
we know that it works, and it has to be part of our activities 
to prevent forest fires. If one occurs, the suppression is much 
easier. We have seen up in the Big Timber area where a fire 
just got all the way up to a grazing lease and then it quit 
right there. So we think it is pretty important.
    I am pleased with your leadership on the audit. I think 
that was very important because we had a long time here trying 
to figure out what in the world was going on down there and how 
we were using the money. I applaud you for integrating your 
systems of accounting and also the moving, using broadband, 
centralizing your bookkeeping, and all of that.
    So that tells me that we ought to be a little more 
efficient when we start dealing with grazing, forest 
stewardship, and forest health. With the categorical exclusion 
that we have got in place for you, those should move along a 
lot faster than I think they are moving along right now.
    I would yield to my good friend from North Dakota.

                             NOXIOUS WEEDS

    Senator Dorgan. Mr. Chairman, let me again thank the 
witnesses for their testimony. I indicated previously that I 
would submit some questions for the record. As the Chief knows, 
I will once again want to inquire about leafy spurge and weed 
control on lands that I believe we have a responsibility to 
control weeds on. I also want to provide some other questions 
for which we can get some answers.
    Because of the debate on the floor at the moment on this 
live cattle issue from Canada, I am going to go over and 
participate in the debate and I know my colleagues, including 
the chairman of the full committee now, who has joined us will 
participate. So let me defer at this point and, Mr. Chairman, 
thank you very much for this hearing this morning.
    Senator Burns. I will be over to join you in just a little 
bit. Thank you, Senator Dorgan.
    Senator Cochran.
    Senator Cochran. Mr. Chairman, thank you very much for 
convening this hearing to review the Forest Service budget for 
the next fiscal year.

                       HEALTHY FORESTS INITIATIVE

    I notice in your statements both the Chief and the Under 
Secretary refer to the President's Healthy Forests Initiative. 
We were really pleased that we were able to support the 
President's initiative and get legislation passed implementing 
many of the suggestions that the Administration had made.

                    HEALTHY FORESTS RESERVE PROGRAM

    I am concerned about one aspect of the budget request, 
though, and that is the fact that there is no funding provided 
for the Healthy Forests Reserve Program. This was part of the 
Healthy Forests Initiative and we are hopeful that a way can be 
found to reallocate some funds so that that program can be 
funded.
    What is the reaction that you have to that problem? Has 
there been any conversation within the Forest Service or in the 
Department about reprogramming or in some other way making 
available funds for the Healthy Forests Reserve Program?
    Mr. Rey. There have been some conversations. They have not 
involved the Forest Service. They have been held at the 
departmental level. The reason for that is that in the 
delegation that occurred after the Act was passed the Healthy 
Forests Reserve Program was delegated to the Natural Resources 
Conservation Service because of its similarity to a number of 
NRCS programs like the Farm and Ranch Land Protection Program 
and the Grassland Reserve Program.
    We are in the process of writing the regulations--that is, 
NRCS is in the process of writing the regulations--for the 
Healthy Forests Reserve Program. We expect that they will be 
out in proposed form shortly. It is our expectation that we 
will complete those regulations contemporaneously while we are 
working on this 2006 budget and at some point as that occurs we 
would be happy to sit down with the committee and talk about 
some reallocations of funds to provide funding in the Healthy 
Forests Reserve Program.
    Senator Cochran. Good. We would appreciate very much your 
assistance in helping to find a way to see that funds are 
allocated to that program, even though it may not be within 
your budget. Your influence could help.
    Mr. Rey. Actually it is, because the NRCS is the other 
agency I oversee. So you are complaining to the right person.
    Senator Cochran. Okay. We also know that under the law we 
passed, we encouraged more resources be made available for pest 
infestation problems research, particularly into better ways to 
combat diseases in our forests. This not only applies to our 
Forest Service lands, those under your direct jurisdiction and 
responsibility, but also private forests. I think insects do 
not know whether they are on private land or public land when 
they start their work. There is a lot that can be done by our 
Government agencies to help private landowners. In our State, 
most of the land is in private ownership and so I am hopeful 
that the Forest Service and the Department will continue to 
keep that in mind and help lead the way in developing new 
management and treatment methods that they can share with 
private landowners.
    Mr. Rey. We have several of those under way now, mostly in 
the Southeastern States. I know we have some in Georgia and 
some in Arkansas. I do not recall offhand whether we have any 
projects in Mississippi. But what we would be happy to do is 
submit for the record a complete list of the projects so far 
that were developed under I think it is Title IV of the Healthy 
Forests Restoration Act.
    [The information follows:]

    Title IV--Silvicultural Assessments and Accelerated Information 
                               Gathering

    Using authority provided under Title IV of the Healthy Forests 
Restoration Act of 2003, Forest Service Research & Development (R&D), 
National Forest System (NFS), Forest Health Protection (FHP), and State 
and Private Forestry (SPF) are working together and partnering with 
several universities and State forestry agencies to conduct landscape-
scale applied research projects to address insect infestations and 
diseases that threaten the health of many of our forests and grasslands 
in the United States. The applied research projects aim to conduct and 
evaluate different land management practices that reduce problems 
associated with the current outbreaks of insects such as the red oak 
borer and southern pine beetle, and to translate that information for 
practicing professionals, landowners, and the public. These projects 
will be instrumental in mitigating the damage caused by these 
destructive insects. There are currently six silvicultural assessments 
underway.
    Title IV also includes projects on accelerated information 
gathering on insects and diseases. There are currently six of these 
projects planned or underway, and one has been completed.
    A complete list of Healthy Forest Restoration Act research and 
development projects, under Title IV--Silvicultural Assessments, and 
Accelerated Information Gathering, is below. A detailed description of 
each individual research project may be obtained at http://
www.healthyforests.gov/applied_research/index.html.
    Silvicultural Assessments:
  --Research and demonstration areas of silvicultural treatments for 
        minimizing gypsy moth effects
  --Hemlock woolly adelgid in the southern Appalachians at Otto, North 
        Carolina (SRS-4351)
  --Applied silvicultural assessment of upland oak-hickory forests and 
        the red oak borer in the Ozark and Ouachita Mountains of 
        Arkansas at Monticello, Arkansas (SRS-4106)
  --Maintaining habitat diversity, sustaining oak systems, and reducing 
        risk of mortality from gypsy moth and oak decline on the Daniel 
        Boone National Forest: silvicultural approaches and their 
        operational dimensions
  --Applied silvicultural assessment (ASA) of southern pine beetle 
        (SPB) in southern pine stands west of the Mississippi River 
        (SRS-4106)
  --Silvicultural thinning treatments for hemlock woolly adelgid (HWA) 
        damage mitigation (NE Station)
    Accelerated information gathering projects include:
  --Response of bark beetle populations to wildfire and prescribed 
        burning at Athens, GA (SRS-4505)
  --Hemlock woolly adelgid in the southern Appalachians at Athens, GA 
        (SRS-4505)
  --Trapping systems for early detection of exotic beetles at ports-of-
        origin and ports-of-entry, and for detection and control of 
        exotic and invasive beetles in urban landscapes and managed 
        forests at Athens, GA (SRS-4505)
  --Blacks Mountain interdisciplinary research project--Cone Fire 
        assessment
  --Stand and landscape visualization systems and remote sensing of 
        forest vegetation structure
  --Rapid response treatment strategies for public and private 
        landowners in the South to recover from Red Oak Borer in the 
        Ozark Mountains of Arkansas at Monticello, Arkansas (SRS-4106)
  --Genetic diversity of western white pine (Pinus monticola Dougl.) 
        revealed by genetic markers: Improving the white pine blister 
        rust resistance breeding program and understanding the 
        importance of natural regeneration after biotic and abiotic 
        disturbances.

                    HEALTHY FORESTS RESERVE PROGRAM

    Senator Cochran. Thank you very much.
    Mr. Chairman, thank you for the hearing and the good job 
you are doing as chairman of this subcommittee.
    Senator Burns. Thank you very much, Mr. Chairman. I will 
address you back as ``Mr. Chairman'' also.

                             FOREST HEALTH

    I think the chairman raises a good question on our research 
and the maintenance of our forests, especially with regard to 
insects. They do not know whether the trees are privately owned 
or owned by the Federal Government. No matter what the private 
people do in order to take care of their problem, if we do not 
take care of ours, theirs is an endless job and we never will 
get our arm around this.
    So I think he raises a good question there and we should 
take a look at that.
    Senator Bennett.
    Senator Bennett. Thank you, Mr. Chairman.

                            LITIGATION COSTS

    One of my main hobby horses that I continue to ride is the 
impact of litigation costs, both in the Forest Service and the 
BLM. We have had testimony from the BLM that litigation costs 
eat up something like 50 percent of their administrative 
budgets, and people keep filing delays, filing appeals, doing 
everything they can to use the courts to prevent what I 
consider to be sound management.
    The Government wins something like 99 percent of all of 
these appeals, but the amount of administrative time spent 
dealing with them and legal fees spent handling it are great. 
The folks who file the protests really do not care about the 
merit of their position. They simply want to snarl up the whole 
process.
    Do you have a sense or can you give us a summary of where 
these litigation costs are in the Forest Service?
    Mr. Bosworth. Senator Bennett, I do not think I can give 
you a specific cost regarding our litigation costs. The 
situation for us is that every one of our projects in one way 
or another is affected by litigation, because we have to go 
through additional analysis, additional work, checking, double-
checking--getting an administrative file that may be 6 feet 
tall if you stacked it on end--assuming we may get litigation.
    So every project ends up being affected because we have 
people doing work and analysis and documentation that otherwise 
is not really necessary for a sound decision. They go through 
it in order to make sure that if they get litigated, they will 
have an opportunity and a chance to win.
    So if you just took the actual cost of litigation per se, 
the specific amount of time we spend on it, it would not be a 
high percentage of our budget, but probably 50 percent of our 
time goes into planning and doing analysis and documentation in 
the event of that litigation. Then we often get appealed; we go 
through the appeals process and then we get litigated on a 
proportion of those.
    So our concern has been how to reduce that level of 
analysis and work that we do so that we can make sound 
decisions and involve the public, but not have to have 10 boxes 
worth of administrative record to defend ourselves in court. It 
is very impacting in the end.
    Mr. Rey. I think that the costs break into three broad 
categories. There is the one we can quantify for you and submit 
for the record and that is the actual cost of the time spent in 
appeals and litigation. The second, which the Chief mentioned, 
is the collateral cost of working backwards for all the 
projects that are affected by litigation, adding additional 
analysis and process in the interest of litigation avoidance.
    The third is the opportunity costs associated with projects 
that are time-sensitive that are delayed and ultimately changed 
as a consequence of the delay associated with litigation. In 
southern Oregon, for instance, we are in the middle of a matrix 
of lawsuits, which is probably the best way to describe it, on 
the recovery project for the Biscuit Fire, that burned in 2002, 
which was the largest fire in Oregon's history.

                            LITIGATION COSTS

    Ultimately, by the time we sort our way through all the 
litigation--and so far we are winning the lawsuits; we are not 
losing them--much of the salvageable timber that we would have 
salvaged is going to be substantially less useful, if not 
worthless. The proceeds from that salvage were going to 
partially pay for much of the other restoration work that was 
going to be done on those sites to stabilize those watersheds 
on a long-term basis.
    So as we lost that potential revenue source as an 
opportunity cost associated with litigation that we will 
ultimately win; at least we are winning so far, even in the 
Ninth Circuit. We are going to have to either forego the 
restoration work or pay for it out of appropriated dollars. So 
that opportunity cost is not inconsequential, particularly in 
projects that are time-sensitive by their nature.
    Senator Bennett. We are the Appropriations Committee and we 
have to come up with the money that you need to carry out your 
mission, and it is just very frustrating to me that such a high 
percentage of the money we come up with goes into what is 
essentially a totally nonproductive kind of activity. If you 
were losing your lawsuits, that would indicate that you were 
doing something wrong and that these people are watchdogs. But 
the fact that you win so often indicates, I think, that they 
are not watchdogs; they are dogs in the manger who simply do 
not want you to do your job and they are using the courts as a 
way to try to prevent it.

                                 ENERGY

    Let me turn my attention to the question of energy 
resources. There is a great deal of energy available in the 
Intermountain West, where I come from, and increasing attention 
is being paid to the potential of energy coming from Forest 
Service lands. There is some sense of frustration that land 
managers on the ground do not pay attention to energy 
development, they put it very much on the back burner. Do you 
want to address that and agree or defend or vigorously deny or 
whatever else you might have in mind with respect to this 
question?
    Mr. Rey. Well, I think I would offer an alternative 
perspective. If you look at our 2006 request from among the 
National Forest System accounts, what you will see is that one 
of the largest increases is for our minerals program. A good 
part of that is a reflection of the fact that we know that we 
have a backlog of opportunity there and a desire to be more 
efficient in reviewing the applications that we get for new 
development. We are trying to process those in an efficient 
fashion so that we can produce energy in an environmentally 
sensitive way.
    Mr. Bosworth. If I could add just one thing to that, we are 
also putting significant effort into biomass and utilization of 
biomass, both in terms of research and finding places where we 
can utilize some of that material to help reduce energy needs 
for this country.

                             PLANNING RULE

    Senator Bennett. Land management plans. We have talked here 
before about the Dixie National Forest and how again, back to 
the first subject, protests and petitions and so on have 
prevented us from saving the Dixie Forest from devastation by 
the beetles. People say: Gee, if human beings go in there, 
somehow they will taint the forest. The fact is, the beetles 
are there destroying the forest and human beings, if they were 
there, could do something about it, somehow that is okay. If 
nature kills the trees, the trees deserve to be dead, but if 
human beings kill the trees and turn them into houses, somehow 
that is evil. I do not support that view, but there is that 
view.
    Can you talk about improvements to the LMP that are coming 
as a result of the new rule you adopted in December 2004?
    Mr. Bosworth. Yes, I would be happy to do that. As you 
said, in December we finalized our planning rule. We have been 
operating under the old planning rule that was developed in 
1982, so you can tell that is quite outdated and it was time to 
make some significant revisions, in our judgment. So the new 
planning rule that we have does several things.
    First, I believe it will allow for better public 
involvement. It is going to be shorter. We will get it done 
quicker. We estimate that under the new planning rule we will 
be able to complete a forest plan revision in 2 to 3 years. 
Under our existing time frame it has taken us 8 to 10 years to 
complete a 15-year forest plan.
    By having it shortened, I believe that it will allow people 
to be much more engaged and much more involved. The average 
person cannot be involved in a forest plan if it is going to 
take 8 or 9 years to get it done. The people who are being paid 
can. The people from the timber industry or the livestock 
industry or the environmental industry can be involved in it. 
But the person down the street who wants to go out with his 
family and enjoy the national forests cannot stick with it.
    So I believe that is one major change I think will help. It 
will also cost less money if we get it done quicker.
    I believe it will also provide for better environmental 
protections. The reason I say that is because we have an 
Environmental Management System that we will put in place that 
requires an independent audit of the forest each year and that 
will show whether or not we are doing what we said we would do 
and whether or not we are getting the outcomes that we said we 
will get. We will increase the amount of monitoring that we are 
doing, so that will allow us then to make adjustments based 
upon what we have learned.
    So the whole notion would be, instead of trying to guess 
what might happen by doing an analysis up front, we will do 
adequate analysis, but we will put our emphasis into after we 
have implemented for a year; then we look and see what actually 
happened and learn from that and make adjustments. That makes 
more sense to me. I think that will provide for better 
environmental protections.
    I think it will also increase the visibility of our 
projects by having independent auditors looking at what we are 
doing and involving the public in that.
    In the end, all of our decisions will be science-based. The 
planning rule requires using the best available science. Our 
analyses will be reviewed by our scientists to make sure that 
we are actually interpreting the science correctly.
    So those are the major changes that I think will end up 
with a much better process that will be more acceptable to the 
public.
    Senator Bennett. Thank you.
    Thank you, Mr. Chairman.
    Senator Burns. Senator Stevens.
    Senator Stevens. Thank you, Mr. Chairman.

                        RED CEDAR EXPORT POLICY

    I am concerned about a few things here that I read in the 
budget. For instance, there is a request that we change the 
prohibition against export of Alaska's red cedar to give the 
right of first refusal to the timber industry and then to allow 
its export. Just how would that work? Are you going to set the 
price and if they take it they can buy it; if not, are you 
going to export it? I do not understand that mechanism.
    Mr. Rey. That is basically how it would work. This would be 
an opportunity to----
    Senator Stevens. Well, you have got a timber industry on 
its knees because of the work of extreme environmentalists in 
our State and they cannot afford to meet the bid of people in 
foreign countries that do not have the environmental 
restrictions that we have. That is a no-brainer. I do not 
understand who came up with that.
    Mr. Rey. No, this is an attempt to help the industry in 
Alaska to market the red cedar, which they do not manufacture 
in Alaska, but to also give the opportunity for the industry in 
the Puget Sound to get access to those logs. The way that the 
system is supposed to work is----
    Senator Stevens. All we did was prohibit the export, Mark. 
We did not say you could not sell it to Seattle. They can still 
sell it to Seattle if they want to buy it. I do not understand 
that language at all. I would urge you to look at it and give 
us a paper on what it really means. I have been around that 
industry for a long time and I never saw such a proposal, that 
our people can buy it if they meet your price, is what you are 
saying.
    Mr. Rey. No. What we are saying is that the producers in 
the Puget Sound area get a right of first refusal at a set 
price.
    Senator Stevens. No. The language says first refusal to the 
Alaska timber industry. Check it, will you?
    Mr. Rey. Okay, we will check on that.
    [The information follows:]

    Senator Stevens is correct, since the Alaska timber industry would 
be making the initial purchase.

                           KAKE LAND EXCHANGE

    Senator Stevens. Second now, we provided $2 million to 
facilitate what was known as the Kake Land Exchange. You want 
to strike that language. Why?
    Mr. Rey. I think the exchange is complete, is it not?
    Senator Stevens. Again, take a look at that. I do not 
understand that either.
    [The information follows:]
                           Kake Land Exchange
    In October 2000, Congress enacted the Kake Tribal Corporation Land 
Transfer Act (Public Law 106-283, Kake Act), an amendment to the Alaska 
Native Claims Settlement Act (ANCSA). The statute provides for the 
reallocation of lands and selection rights among the State, Kake Tribal 
Corporation, and the City of Kake in order to protect and manage the 
Kake municipal watershed.
    The Kake Act provided that if the State relinquished its selection 
rights to 1,389 acres of Federal lands in Jenny Creek, and if Kake 
Tribal Corporation and Sealaska conveyed 1,430 acres of non-Federal 
lands to the City of Kake, then USDA would convey the surface estate of 
the 1,389 acres at Jenny Creek to the Kake Tribal Corporation and the 
subsurface to Sealaska.
    The lands conveyed to the City were encumbered by a conservation 
easement granted by Kake Tribal to the Southeast Alaska Land Trust to 
provide for the perpetual protection and management of Kake's 
watershed. Thus, the Act authorized ``such sums as may be necessary to 
carry out this Act, including to compensate Kake Tribal Corporation for 
relinquishing its development rights [in the lands encumbered by the 
conservation easement] and to provide assistance to Kake Tribal 
Corporation to meet the requirements of subsection (h) [the timber 
export restriction].''
    In fiscal year 2001, the appropriations legislation provided $5 
million for this purpose. The Alaska Region determined the value of the 
timber rights Kake Tribal Corporation relinquished to be worth at least 
$5 million and transferred the funds. Kake Tribal Corporation 
commissioned a market analysis that indicated the Corporation lost $18 
million in revenues. This amount was not verified or accepted by the 
Forest Service using standard market value estimates. In subsequent 
fiscal years (fiscal year 2002 through fiscal year 2005), Congress 
appropriated additional lump sum payments to Kake Tribal for 
implementation of the Act. A total of about $13 million has been 
allocated to Kake Tribal (subject to rescission percentages). The 
Forest Service believes that the Kake Act has been fully implemented.

                          TIMBER SALE PIPELINE

    Senator Stevens. We proposed that there be $5 million be 
put in to funding for the EIS's on Alaska timber sale to ensure 
that there would be a stable supply of timber, the so-called 
pipeline amendment, to put some timber in the pipeline so it 
would be there and the EIS's would be cleared in advance so 
people knew what they were bidding on. Right now you bid on it 
and then the EIS comes along and it is stalled for 2 years. 
Your money is tied up for 2 years and your industry dies.
    Now, what is wrong with our approach?
    Mr. Rey. The problem is litigation, but not the funding of 
the EIS's.
    Senator Stevens. Well, you strike the money, $5 million for 
the pipeline money. Again, I want you to look at that. I cannot 
believe you would strike that $5 million. The Forest Service 
concurred with us that we should find a way to get the EIS's 
completed before a timber sale.
    Mr. Rey. We can take a look at that.
    [The information follows:]

    The President's fiscal year 2006 budget includes up to $4 million 
specifically for allocation to the Alaska Region for the purpose of 
preparing timber pipeline volume which is in addition to its normal 
allocation.

                            ALASKA RAILROAD

    Senator Stevens. One was provided for--$1 million for the 
activities on the Chugach that relate to the partnership 
between the Chugach people--as you know, it is a regional 
Native corporation--and the Alaska Railroad. Why did you strike 
that money?
    Mr. Rey. It was our understanding that that was a 1-year 
project. If there is a continuing need to carry that forward, 
that is something we should talk about.
    Senator Stevens. What this finances is stops made in Forest 
Service area, by the Alaska Railroad. Maybe you should 
understand what it is about. It was in order to increase the 
recreation opportunities in the forest area by financing the 
stops that are necessary. You understand? We have an Alaska 
Railroad. It does stop. It is like a Toonerville Trolley. It 
stops in advance if you tell it where to stop.
    If the people know it is going to stop in the forest, they 
will build the recreational facilities for those stops in your 
Forest Service area. Again, I look at this, I cannot believe 
that the people who prepared it--I hope this is part of OMB's 
additions to your proposal and not the Forest Service. If not, 
I suggest you station some people up in Alaska to learn a 
little bit about my State, okay?
    Mr. Rey. Okay.
    Senator Stevens. I will tell you, a kind letter will follow 
this.

                        ALASKA FIRE SEASON--2005

    As you know, the last year was about the worst fire season 
we have ever seen. At one time there were 6.6 million acres 
burning. For 15 days the EPA rated the air quality in Fairbanks 
as dangerous and hazardous--at 10 micrograms per cubic meter. 
People were told to stay indoors, to avoid exertion. Older 
people had to be moved out of the city.
    I received reports that these fires could have been 
diminished, but you lacked resources to fight fires in my 
State, whereas you were fighting fires of 100,000 acres in the 
lower 48. Now, tell me, who makes that decision that you can't 
fight fires in Alaska?
    Mr. Rey. Those decisions are made by the incident 
commanders on site in charge of the fires, and no incident 
commander in Alaska was denied any resource request that he 
posed.
    Senator Stevens. This was reported in the paper now and was 
reported to us in my offices in Alaska that the Federal 
agencies lacked the resources, manpower, and equipment to 
handle these fires because they were so large. They could 
handle minor fires, but they could not handle large fires. Now, 
you know, some time ago the environmental community came to me 
and said: God made the fires and God made the forests, so you 
should not interfere with God. Is that the proposal now, we are 
going to let fires in Alaska burn?
    Mr. Rey. No, not at all. We trust the incident commanders 
in charge of fires, whether they are Alaskan fires or whether 
they are fires in the lower 48, to decide what the attack 
strategy on those fires is going to be and call for the 
resources that they need. And in Alaska this year----
    Senator Stevens. Well, then I shall call, ask the committee 
to call the people who made the decisions in Alaska to come 
tell us why they did not fight those fires. 6.6 million acres 
of Federal forest burned and the fires went on for 20 days.
    Mr. Rey. It was a record fire season in Alaska.
    Senator Stevens. They tell me, because all the winds are 
bringing all the snow down this year, it is going to be a 
record fire season again.
    Mr. Rey. It is setting up to be another one.
    Senator Stevens. There are 2.2 million acres of beetle kill 
in the Anchorage region. We have not been able to cut it and if 
it is as dry this year in Anchorage as it was in Fairbanks last 
year, it could well consume the area that has half the 
population of my State. You know I live right in the middle of 
it, right?
    Mr. Rey. I think the difference here is that if cities like 
Anchorage or Fairbanks or even small communities are 
threatened, our incident commanders will adopt a much more 
aggressive and resource-intensive strategy.
    Senator Stevens. Now you are saying that if there are not 
any people around you let the timber burn?
    Mr. Rey. We do that in the lower 48 as well. We let it burn 
under prescription if we know that there are no property or 
human lives that are threatened. That is not unique to Alaska.
    Senator Stevens. Over 6.6 million acres of timber can burn 
and you just sit by?
    Mr. Rey. We do not sit by.
    Senator Stevens. You did not try to contain it.
    Mr. Rey. We make sure that we can extinguish when it is an 
immediate threat to human life or property.
    Senator Stevens. Well, you know it was right to the edges 
of the National Missile Defense area at Fort Greeley, do you 
not?
    Mr. Rey. There were contingency plans to make sure it did 
not----
    Senator Stevens. I remember going down to New Mexico where 
it came right up on Los Alamos because of a decision not to 
fight it about 12 miles away and the fire got away.
    I tell you, I do not think you understand. Someone has got 
to take a look at this. You just cannot let fires burn because 
you never know where they are going to go if they really get 
bad.
    Mr. Rey. We do not just let fires burn. Where we have fire 
management plans that we can let them burn with some confidence 
under prescription----
    Senator Stevens. Well, I ask you to check it.
    Mr. Rey. We can do that.
    Senator Stevens. Last, I was told that we do have the Fire 
Jumper School in Alaska in Fairbanks and during this period, 
those fire jumpers were out of the State fighting other fires 
elsewhere.
    Mr. Rey. If that is the case that is because they were not 
called for by the incident commanders that were in charge of 
fighting the Alaska fires.
    Senator Stevens. Mr. Chairman, I ask you to call that 
person to come testify before this subcommittee this year.
    Senator Burns. We will track him down.
    Senator Stevens. I do not accept the position that fires 
should be left totally to go and just rage in an area like ours 
just because we are so big. We have one-fifth of the land mass 
of the United States. Half the Federal lands of the United 
States are in our State. You are making the decision those half 
are subject to different conditions than you would make in 
other States.
    Mr. Rey. No, we are applying essentially the same standard 
in Alaska that we are applying in the lower 48.
    Senator Stevens. But if the resources are not there to 
fight them, how are we going to fight them?
    Mr. Rey. That is the issue I think we are still trying to 
assess, as to whether the resources were there to fight them.
    Senator Stevens. That is the issue I would like to set. I 
tell you, 6.6 million acres burning in a period of 20 days has 
got to be examined. It may be that current needs of the United 
States do not need that timber, but it takes a lot, lot longer 
to grow timber in Alaska than elsewhere. You agree to that?
    Mr. Rey. In that part of Alaska, sure.
    Senator Stevens. Particularly in that part of Alaska, in 
the Interior. It is a slow growing season. We have a long 
season, but it is slow growth because of the shallowness of the 
roots. Once they burn, it takes years. That whole area now is 
just stark. It looks like you are going through a part of hell 
when you drive through it.
    I really urge you to get him up here because someone has 
got to answer why there was not a greater attempt to stop those 
fires.
    Thank you, Mr. Chairman.
    Senator Burns. Thank you.
    Senator Feinstein.
    Senator Feinstein. Thank you very much, Mr. Chairman.
    As one of the co-sponsors of the Senate Healthy Forests 
bill along with you, Mr. Chairman, Senator Cochran, Senator 
Craig, and Senator Wyden, I am very concerned by cuts in this 
budget. It is my understanding that the budget proposes a 54 
percent cut in cooperative fire assistance, a 30 percent cut in 
forest health management on State and private lands, a 13 
percent in cooperative forestry, and elimination of the 
economic action plan which helps businesses economically remove 
hazardous fuels.

                   HAZARDOUS FUELS REDUCTION FUNDING

    In contretemps to this, funding for hazardous fuel 
reduction on Forest Service lands increases from $263 million 
to $281 million. It seems to me that the way this is imbalanced 
gives short shrift to what we, Mr. Rey, tried to accomplish in 
the Healthy Forests bill, and I want to ask a couple of 
questions.
    It is my understanding that the Forest Service has the 
capacity for an additional $41.4 million in hazardous fuel 
reduction on private lands, four or five times as much as the 
approximate $8 to $10 million in the fiscal year 2006 budget 
for these purposes. In addition, there is capacity for an 
additional $15 million in hazardous fuel reduction on State and 
private lands. So my question is, this reading would indicate 
that the budget falls far short of the amount needed to move 
ahead at full speed to reduce the risk of catastrophic fires, 
certainly in southern California.
    Mr. Rey. I am not sure where the capacity numbers come 
from, but clearly there is greater need for fuel reduction work 
on non-Federal lands than the 2006 budget provides funding for. 
I think we can agree on that. As I said in my opening 
statement, as we moved to put together our budget under the 
Healthy Forests Initiative and the Healthy Forests Restoration 
Act, we put together a budget request that focused more heavily 
on Federal lands than on non-Federal lands, and we did that for 
three reasons.
    First, we are the only ones who treat Federal lands. We are 
the only ones who can treat Federal lands. There is no other 
unit of government that is going to provide money to treat our 
Federal at-risk lands, either in the wildland-urban interface 
or outside it.
    Second, if you look across the country, I think it is a 
fair assessment to say that by and large the Federal lands are 
in worse shape than the non-Federal lands. Our fuel loads are 
heavier.
    Senator Feinstein. Except, let me stop you here. It is my 
understanding from my staff that what you have done is 
essentially move the activity to the cheaper areas and away 
from the wildland interface areas.
    Mr. Rey. No, we are actually increasing the amount of 
treatment done in the wildland-urban interface as compared with 
previous years. But we are focusing on the Federal lands within 
the wildland-urban interface, as opposed to the non-Federal 
lands within the wildland-urban interface. And wildland-urban 
interface acres are on the average more expensive to do, so you 
get less acres per a set investment than you would outside the 
wildland-urban interface because you have to go more heavily to 
the mechanical treatment.
    The third reason that we focused on Federal lands may be 
the most important, and that is as we worked with our partners 
in the firefighting community at both the Federal and State 
level, we identified other funding streams that are available 
to our non-Federal cooperators, in some cases with better 
delivery systems than our own.
    For example, the USDA Rural Development program had a $300 
million or so grant program last year using Farm bill funds to 
provide assistance to first responders. That is money that we 
are going to try to get to our rural firefighters. FEMA has a 
$700 million program to assist firefighters at the State and 
local level.
    Senator Feinstein. I guess what I see, Mr. Rey, we gave a 
lot of attention--Senator Conrad was there, Senator Burns was 
there--as to how we set up this bill to be able to move 
aggressively in certain areas on fire. We had big discussions. 
It seems to me that what you are doing is shorting part of our 
problem and moving the money to other places, and that concerns 
me.
    Mr. Rey. I think I agree with the disproportionate 
distribution of revenues over the whole of the problem, because 
we are emphasizing Federal lands over non-Federal lands. It 
does not follow, however, that in making that emphasis we are 
moving the treatments away from the wildland-urban interface 
and into other areas. The treatments are still proportionately 
focused in the wildland-urban interface. About two-thirds of 
our treatments in 2006 will be in the wildland-urban interface.
    But even on a forest with as much non-Federal land as, say, 
the San Bernardino----
    Senator Feinstein. That is what I was going to mention.
    Mr. Rey [continuing]. What we are saying is we are going to 
put our initial emphasis--our proposal to you, I guess I should 
say, is that we put our initial emphasis on treating the 
Federal lands on the San Bernardino, because we are the only 
ones who can and will do that.
    Now, that is obviously a discussion we are going to 
continue to have over the appropriations process. Last year you 
reduced what we requested for hazardous fuels, so in that sense 
you reallocated to hit non-Federal lands.
    Senator Feinstein. Not me, not for reducing.
    Mr. Rey. No, you did not reduce the overall effort, but you 
made us switch from Federal lands to non-Federal lands. Not you 
specifically, but the Congress generally.
    Senator Feinstein. Well, take for example the bark beetle 
forest that is dry and deteriorating very rapidly, which is 
part on Federal and part on non-Federal land in the San 
Bernardino National Forest. Does this mean you treat the 
Federal land and you do not treat the rest of it?
    Mr. Rey. No, what it means is we think there are other 
mechanisms for funding the non-Federal portion of the treatment 
and we want to make sure as we allocate our priorities that we 
can do our part of it. So on the San Bernardino or on another 
forest in a similar situation, what we would try to do would be 
to work with the local communities, identify what funding 
streams they have available, but make sure as we did that, we 
have enough to do our part of it.
    In some of these forests, they are using funding streams 
from the Secure Rural Schools and Community Self-Determination 
Act to do the non-Federal lands treatment. We do use hazardous 
fuels dollars to help with the development of community-based 
fire plans that cover both Federal and non-Federal lands. So we 
are not walking away from the non-Federal lands. What we are 
trying to do is to strike the right balance to make sure that 
if you look across all of the funding streams available that we 
can do a treatment that is effective because we treat both in a 
strategic fashion and not get to the point where all of the 
non-Federal land is treated and the private landowners then 
look to us and say: Well, what have you guys done?
    Senator Feinstein. I guess my concern--and let me just say 
this to my colleagues who were there. If you will recall, we 
spent a lot of time trying to work out a balanced formula and I 
think we did. We took a lot of flak from environmentalists who 
said, they are just going to turn this thing around. I do not 
want that to happen.
    I think that what the intent was and what we did should be 
carried out by the Department. I think it is a real point of 
major integrity that we work, that the cooperative fire plans--
I attended a meeting in August in the Tahoe Basin with all of 
the fire communities. I am going up there again. They have all 
worked very hard to do their cooperative fire plan and to see 
that the funding remained so that that can get done.
    I think it would be really very tragic if what some people 
said would happen with that healthy forest plan happens, 
because we tried to see that it was a balanced approach and 
that we did the right thing by the urban-wildland interface.
    Mr. Rey. I think we are all committed to making sure that 
approach works and what we have to do as we go through each 
budget cycle is try to make sure we get the right amount of 
funding in each program area.
    Senator Feinstein. All I know is what my people tell me and 
they tell me that the way this is worked out shorts California 
and it moves the money to cheaper areas to do forestry work.
    Mr. Bosworth. I would like to respond to that, Senator. As 
Chief of the Forest Service, I get a number of different 
recommendations from my folks saying, well, here is how we 
ought to allocate it around the country. When they are looking 
at these recommendations from time to time, they say: Well, you 
know, it costs more money to do business in California; we 
ought to put it in the wildland-urban interface than some other 
place.
    So often when they are making those considerations, those 
considerations become available for other people to look at. 
All I want to tell you is they are not decisions until I make 
them. I am happy to have those considerations, but in 
California, even though we had some recommendations to do some 
different things based on cost per acre, we put the dollars in 
California where they were needed and we kept the program at 
the level and will continue to be giving a high priority for 
California.
    Senator Feinstein. Well, I had whispered in my left ear, 
where I am a little bit hard of hearing, that they did this 
year, but what about next year?
    Mr. Bosworth. Well, I am sure that I will get 
recommendations from folks again with a variety of different 
choices in how we ought to do it. But I am still going to be 
the one that makes the decision and I am very concerned about 
those wildland-urban interface areas in California. They are 
more expensive. It costs more to do business.
    Senator Feinstein. I understand that. But I cannot help 
that in any way. That is the way it is.
    Mr. Bosworth. Neither can the Forest Service folks that are 
in California, because it is just a higher cost of doing 
business. So we are going to continue to find the right 
balance, but I just do not foresee ending up shorting the areas 
there that have the critical wildland-urban interface with 
national forest land all around them.
    Again, we will continue to always look at different 
choices, but I just cannot foresee a decision that would make 
significant reductions in California.
    Mr. Rey. The good news, I guess, in terms of this is that 
our regional foresters are arguing passionately to get more 
money to do this work, and your regional forester is among the 
most aggressive and passionate.
    Senator Feinstein. Good, we like that. Thank you very much.

                          COMMUNITY FIRE PLANS

    Let me go to the community fire safe councils. It is my 
understanding that communities get about $40 million I requests 
from the fire safe councils and that there is some additional 
money available through the county payments legislation which 
Senators Craig, Wyden, and I are working on to try to get 
reauthorized. How are we going to implement the fire safety 
councils plan in the face of these budget cuts or proposed 
budget cuts?
    Mr. Rey. Well, we do fund some of the fire planning work 
through hazardous fuels dollars, which has not been cut. It has 
actually been increased. So there is some assistance there. The 
money that is provided under the Secure Rural Schools and 
Community Self-Determination Act is from a mandatory account, 
so that money will continue to flow as well.
    So we have been so far able to keep up with the community 
fire planning process. There are about 600 that have been 
developed so far, which is actually pretty impressive because 
it has only been 13, 14 months since the bill's enactment, and 
those are up and running. I think so far we have been able to 
keep up with the desire of the communities for assistance with 
their plans.
    Senator Feinstein. All right. Well, we will watch and see. 
That is for sure.

              ADAPTIVE MANAGEMENT--SIERRA NEVADA FRAMEWORK

    Let me just say that I understand you were instrumental in 
working out an agreement between the Forest Service and the 
University of California on an adaptive management plan for the 
revised Sierra Nevada Framework. I just want to congratulate 
you on that. I think it is important to have that independent 
review.
    Can you explain to us how you envision this working?
    Mr. Rey. Sure. I will take the first cut at that, but the 
Chief and, more notably, the regional forester will probably be 
much more articulate about the details.
    It is being set up as a three-part agreement between the 
State, the Forest Service, and the University of California at 
Berkeley. In the Forest Service there are two entities 
involved. There are the national forests of the Sierra Nevada 
region and then there is the Pacific Southwest Forest and Range 
Experiment Station at Berkeley.
    The University of California will do monitoring of the 
treatments that we apply for fuels reduction purposes in a 
number of sites that are going to be selected by the university 
in conjunction with the State and the Forest Service, and that 
will be part of our active monitoring program that we do as we 
move forward to implement the Sierra Nevada Framework.
    As the results of that monitoring are made available, the 
university will analyze it. It will be available for public 
review. The primary purpose of it, I guess to state it as 
simply as I can, is that we will be evaluating whether the 
treatments that we have specified accomplish the results that 
we desire and just those results. We want to evaluate whether 
they are effective in fuel reduction and that there are no 
unanticipated or unintended consequences as a result of 
implementing.
    If we find that either they are not effective or there are 
unintended consequences of a negative nature, then that work 
will form the basis for subsequent amendments to the Sierra 
Nevada Framework. The University of California and the State, 
for that matter, but primarily the University of California, 
will provide an independent certifying capability to see that 
the Sierra Nevada Framework works as we hope it will.
    Senator Feinstein. I think that is very interesting. It is 
going to be interesting to see how it works out. Let me just 
commend you.
    Do you have anything to add, Mr. Bosworth, to that?
    Mr. Bosworth. The only thing I would add is that it is 
critical for us to have a monitoring system that has public 
credibility. When you look at a plan like the Sierra Nevada 
Framework, it is fairly controversial, so there are differences 
of opinion on all sides. The future for us is going to be in 
effective monitoring, and often using independent outside 
parties to help us do that monitoring and evaluation, to do the 
kind of adaptive management that we need to do in the future.
    That is really what this is about. So this approach has the 
potential to be a model for some other places if it works. I do 
not have any reason to believe that it would not work well.
    Senator Feinstein. Well, it is certainly a hot issue. Let 
me just commend both of you. I think it is a very interesting 
project.

                          QUINCY LIBRARY GROUP

    Let me ask the last question on the Quincy Library Group. 
What actions has the Forest Service taken to ensure that the 
QLG project will meet the intent of the law in future years? 
Really what I am getting at is the planned program of work in 
the remaining years of the project.
    Mr. Bosworth. The budget proposal would maintain the base 
level of funding for Quincy Library Group. Every opportunity we 
get, we put more money into it if we can. So in fiscal year 
2005, this fiscal year, we were able to scrape up even some 
additional dollars to put into QLG to do some additional work.
    The funding proposal for 2006 would be the same level as it 
was for 2005 and that was enacted for 2005 and the same that it 
was for 2004. As I said, if there is excess money somewhere--
which there is not usually a lot, but from time to time there 
will be dollars that will not get spent as effectively in 
another forest or another region--whenever we have the 
opportunity we will put some of those dollars into Quincy 
Library Group to ensure that we get the outcomes there that you 
had intended.

                            ROAD MAINTENANCE

    Senator Feinstein. Just one other quick question. In places 
of real road devastation, particularly in southern California, 
caused by the fires, are you going to be able to help with 
those roads? As has been stated, this is going to be another 
big fire year, I suspect, for southern California.
    Mr. Bosworth. Right now we are assessing primarily the 
flood damage that occurred from the huge rain storms in 
southern California. We know that there was somewhere in the 
vicinity of $35 million worth of damage to roads and trails, 
but we have not completed the analysis or the assessment. So 
what it will require is, at least to some degree, given the 
dollars that we have currently, that we would redirect where we 
can and do what we can to respond to that with the dollars that 
we have.
    Mr. Rey. Similarly on non-Federal lands, the Natural 
Resources Conservation Service is starting to get initial 
assessments of flood damage in the form of requests for 
emergency watershed protection money.

           BARK BEETLE DAMAGE--SAN BERNARDINO NATIONAL FOREST

    Senator Feinstein. I am sorry. I said the last question. 
Just one more. I am really concerned with the San Bernardino 
Mountains and the bark beetle forest. The longer you leave the 
trees there, it seems to me, the worse it gets. How much of 
that infested acreage do you think you are able to treat this 
next year? Can you give me a percentage?
    Mr. Bosworth. I do not think that I--well, let us see. I 
guess I can. Well, at least for fiscal year 2006, based on 
the----
    Senator Feinstein. Assume it is 1 million acre area.
    Mr. Bosworth. Well, approximately 56,000 acres would be 
treated with hazardous fuels funds. The 2006 President's budget 
proposal would allow for about 56,000 acres. Now, the total 
area I think that has insect damage on the San Bernardino 
National Forest I believe is around 350,000 acres or 400,000. I 
could be wrong on that, though, and I would have to get you 
better information to be sure. Is it 400,000? That is in the 
neighborhood.
    Senator Feinstein. Then the rest of it. Are you saying that 
the rest of it is going to remain untreated?
    Mr. Bosworth. Well, it really depends on where you locate 
the treatments. You do not have to treat every acre. If we 
locate our treatments in a strategic way, then that helps 
protect other areas from fire or insect disease. So it is 
critical that we locate our treatments in the right places.
    For example, in a certain drainage, you may have a 100,000 
acre drainage, but you may only need to treat 25 or 30,000 
acres if you do it right, rather than every single one of the 
acres.
    Senator Feinstein. I guess the reason I am asking this is, 
as you know, there are homes all in the middle of this. I mean, 
it is the most complicated thing. I would like to ask that you 
work with us on how you are going to do this, to try to get the 
most bang for the dollars in the interface areas where private 
property is really at risk.
    Mr. Bosworth. I would be very, very happy to work with you 
on that. I have flown over the area. I have been driven through 
the area. I have hiked through some of it, several times in the 
last 2 years. It is a very, very difficult area that is in a 
very, very terrible condition.
    Mr. Rey. I think most of the treatments are being laid out 
with the local communities through a task force that has been 
in existence for about 4 years down there. The best thing to do 
might be, if you are going to be in that area at some point 
this spring, to just sit down with the task force people and 
have them lay out what the program of treatments are.
    Senator Feinstein. I will do that, but just generally, 
57,000 acres out of nearly 1 million acres of infested forest 
is just a little bit. That is what I am most worried about, 
where we are going to get the funds to really be aggressive.
    Mr. Bosworth. It is 56,000 out of 400,000. So it is still a 
small percentage.
    Senator Feinstein. Of Federal land.
    Mr. Bosworth. Yes.
    Senator Feinstein. Okay, and not the non-Federal land.
    Mr. Bosworth. Correct.

                         CONDITIONS IN MONTANA

    Senator Burns. If you would like to visit Montana we will 
show you some of that, you do not know what a problem is. Ours 
is bigger and we have got it up there. With that, your flood 
damage down there we would take a little of it. We need 
moisture. We have no snow and we just do not have a lot of 
moisture.
    I am going to only take up one more question. We lost 
another sawmill this year, you know. Owens and Hurst went down. 
When we talk about her problems, we are losing our 
infrastructure and people who know how to work the forests. We 
lose 90 jobs up there and some allied jobs around that, that 
help us deal with the people who know how to operate in the 
forests, even on our fires and anything else.
    So we have a big problem. Up there where they have 
diseases, we cannot get those trees out, or the small diameter 
trees. We retooled our mills to handle smaller diameter logs 
and now they cannot get them. It goes through the appeals 
business and all of that, even with hazardous fuels and healthy 
forests and forest stewardship.
    So I am at a loss on how we are supposed to handle all of 
these things. I think probably when you start taking some of 
those trees out down there, you will probably run into some of 
the same problems we run into up in Montana. It sure gets in 
the way of good forest management.
    They have just about covered all the questions I have up 
and down the line. I have a few more, but we can address those. 
We are going to see a little bit of a change in funds as we 
work our way through this budget, but we will come to agreement 
on that, I think, fairly quickly, and I appreciate all your 
work.
    Senator Cochran, have you got other questions for this 
panel?

                         APPROPRIATION PROCESS

    Senator Cochran. I was going to ask, Mr. Chairman, a couple 
of questions about the organization of the Forest Service in 
the Department of Agriculture and the challenge that that 
presents to you in responding to requests to testify at 
hearings of the Appropriations Committee. We just went through 
a reorganization of our subcommittees and made some changes in 
jurisdictional responsibilities in our subcommittees. You are a 
part of the Department of Agriculture and you are here 
testifying before an Interior Appropriations subcommittee. Do 
you also get called to testify before the Agriculture 
Appropriations subcommittee as well during the consideration of 
the budget request?
    Mr. Bosworth. I do not get called for the Forest Service 
budget. I do not testify at Agriculture Appropriations. On 
occasion we participate in oversight hearings, but not from the 
Appropriations Committee on Agriculture.
    From my perspective, it works very well working with the 
Interior Appropriations subcommittee.
    Senator Cochran. Which subcommittee actually approves your 
budget request or provides funding for your activities every 
fiscal year?
    Mr. Bosworth. Interior does, the Interior subcommittee.
    Mr. Rey. I typically appear before the Agriculture 
subcommittee, but for the Natural Resources Conservation 
Service.
    Senator Cochran. Right, because you are also--you supervise 
the Director of the NRCS, do you not?
    Mr. Rey. Right.
    Senator Cochran. Well, I am curious to find out how all 
this works in practice. When we start reorganizing things, 
sometimes it has an impact that we do not fully appreciate 
while we are moving responsibilities around among different 
subcommittees. I wanted to be sure we had not made some 
decisions here that made it harder for you to do your business 
or less efficient in terms of the time you have to spend up 
here on Capitol Hill.
    Mr. Rey. I do not think your reorganization will affect us 
either way.
    Senator Cochran. Good. It suits you to continue the way 
that we are handling your budget request each year in terms of 
the committees that have jurisdiction over your hearings and 
writing the bill for you?
    Mr. Rey. I think so. The Forest Service and the Department 
of the Interior land managing agencies have enough comparable 
programs that it probably is a benefit to look at them as a 
whole. So I think it probably works just fine.
    Senator Cochran. Good.
    We thank you for the good job you are doing. We hope that 
the implementation of the National Forest Initiatives through 
the law that we passed is moving along the way we anticipated. 
You were very active in that, Mr. Rey, and we appreciate your 
personal involvement in coming up here to the Hill to meet with 
Senators as we were working our way through that.

                    HEALTHY FORESTS RESTORATION ACT

    Is the law living up to our expectations? Is it really 
giving you the tools to better manage our forests and make sure 
we achieve our goals?
    Mr. Rey. I think it has been so far.
    Mr. Bosworth. I would like to respond to that. In fiscal 
year 2004, the amount of work that we got done far exceeded 
anything that we had done in the past in terms of fuels 
treatment, for example. I think that as time goes on and our 
folks get more adept at using the new tools and opportunities 
that we have through the Healthy Forests Restoration Act, they 
will get even better. Those kind of things help us a lot, and 
we are going to continue to always look for more improvements 
and ways that we can modernize our processes. We may need help 
in the future on some other things, but so far, so good.
    Senator Burns. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Rey. Probably one other insight to share with you about 
that is that, aside from the words in the statute and the 
programs that emanated from it, one thing that I did not 
anticipate is how much more enthusiasm we found at the field 
level in the Forest Service and, while I cannot speak directly 
for them, the Department of the Interior land managing 
agencies, as a consequence of Congress speaking affirmatively 
in enactment of the Healthy Forests Restoration Act.
    That has had a material effect on how people at the ground 
level have felt about their activities and about their mission.
    Senator Cochran. That is good to hear. Thank you for giving 
us that information.
    Senator Burns. That, Senator, would reflect pretty good 
leadership here at the top end. So I think Dale has done a 
great job and all of you have done a great job. In some areas 
we will always have conflicts. We will work our way through 
this budget and this appropriation. With your help, I think we 
will come to a very successful conclusion.

                     ADDITIONAL COMMITTEE QUESTIONS

    There will be some additional questions which will be 
submitted for your response in the record.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

              Questions Submitted by Senator Conrad Burns

                        FINANCIAL ACCOUNTABILITY

    Question. The Forest Service has received a clean audit opinion on 
its books for the last three fiscal years. The agency was also taken 
off the GAO's list of agencies at high risk of waste, fraud and abuse 
this year. The Forest Service is now drastically reorganizing its 
financial management systems by consolidating these functions in one 
location rather than having this work done throughout the Regions of 
the Forest Service.
    Please explain how this reorganization will make your financial 
management systems better?
    Answer. We were on the high risk list because we lacked 
accountability over billions of dollars in two major assets: Fund 
Balance with Treasury and property, plant and equipment.
    We believe these efforts, when implemented effectively, will 
provide stronger financial management, sustain positive audit results, 
and ensure compliance with federal financial reporting standards. We 
will be able to sustain this improved, more efficient, and more 
accurate operating model.
    Beginning in December 2001 and continuing throughout 2002 we 
developed a corrective action plan, brought in contract resources to 
supplement agency staff, made system improvements, performed property 
appraisals on major real property assets, reconciled all asset and 
liability accounts and adjusted the agency's accounting records to 
reflect the results of this work. As a result of this effort, the 
agency received an unqualified audit opinion on its fiscal year 2002 
financial statements; however, we had not yet proven we could sustain 
this outcome in future years. We had not reached the end goal of 
routinely producing timely, accurate and useful financial information.
    In the past two years we made additional progress, especially with 
respect to addressing several long-standing material internal control 
deficiencies. We resolved material deficiencies related to fund balance 
with Treasury, and in property, plant and equipment, thus increasing 
accountability over billions of dollars in assets. We received 
unqualified audit opinions on our financial statements for fiscal years 
2003 and 2004 thus demonstrating sustainability for three consecutive 
years.
    Management has demonstrated a strong commitment to efforts that, if 
effectively implemented, should help to resolve many of our remaining 
financial management problems and move us toward sustainable financial 
management business processes. We have a corrective action plan that we 
are executing and we have demonstrated progress in addressing our 
financial management deficiencies. These efforts are designed to 
address internal control and noncompliance issues identified in audit 
reports, as well as organizational issues. For example, during fiscal 
2004 we began re-engineering and consolidating our finance, accounting 
and budget processes to a central processing center in Albuquerque, NM. 
We previously operated in a decentralized model with over 150 
accounting/budget centers located through out the regions (9), forests 
(130), stations (8) and area. The centralization effort began in March 
2004. We have redesigned financial/budget processes to operate in a 
central processing center. The Albuquerque Service Center (ASC) opened 
on February 22, 2005. As of April 4 we have approximately 230 employees 
in the ASC with work and staff migrating thru January 2006.
    Question. How much money does the agency expect to save through 
this reorganization?
    Answer. The business case for this effort indicated a one time 
investment of approximately $45 million to be spent mostly in fiscal 
year 20h some small amount being spent in the 1st quarter of fiscal 
year 2006. The expected annual cost savings from this centralization 
effort are projected to be $36 million. The investment payback period 
is approximately 1.7 years. We are well on track at this stage of the 
project at achieving these cost savings for the investment indicated.
    Question. What will be the personnel impacts on the Regions by 
moving all these people to one location?
    Answer. There were approximately 1,175 full time employees of whom 
approximately 1,055 were located in the regional offices (9), forests 
(130), stations (8) and area (1). There also were approximately 800 
full time equivalent employees performing budget and finance work part 
time at the R/S/As. At the conclusion of this centralization effort 
there will be 305 field budget personnel and 47 field personnel engaged 
in operating the new Integrated Acquisition System. These 352 personnel 
will be located at the R/S/As. Thus there will be an approximate 
reduction at the Regions of 600-800 personnel depending on how many of 
the part time FTEs are reduced. The Albuquerque Service Center for 
Financial Management will employ approximately 400 people.

                             PLANNING RULES

    Question. In December of last year the Forest Service released its 
final rule revising the forest planning regulations. The forest 
planning process has become far too costly and time consuming. Under 
the old rule, the agency was spending millions of dollars on forest 
plans that were taking 5-6 years just to prepare.
    Please describe how these new planning rules will streamline this 
process?
    Answer. The new forest planning rule will improve the way the 
Forest Service does forest planning. Land management plans under the 
new planning rule will be strategic in nature, and more timely and cost 
effective. The goal is to shift resources from extensive up-front 
planning, to a more balanced planning program where plans are revised 
quickly, and resources are shifted from planning to monitoring. With a 
more efficient revision process, we hope to get our resource 
specialists out of the office, and into the field.
    The process will be streamlined mainly in three ways. First, the 
new rule promotes strategic plans. The planning process recognizes that 
effects cannot be meaningfully evaluated until the project stage. 
Therefore, the forest plan analysis doesn't typically need to be as 
detailed as in the past. Second, Forest Supervisors are encouraged to 
use an interactive, collaborative process to iteratively develop the 
proposed plan. This means not only is public involvement more 
meaningful, but the interdisciplinary team no longer needs to carry 
through three, four, five, or more full ``alternatives'' though the 
entire planning process. Rather analysis is needed only for the 
proposed plan and what narrower options remain after initial public 
involvement is concluded. Third, because new science, assessments, or 
other new information can be used immediately, plans will only need to 
be amended when the new information points to a need to change a plan 
component.
    Question. Will the public still have a full opportunity to provide 
input to the Forest Service during the planning process?
    Answer. Yes. Public involvement is emphasized in the 2004 rule. The 
Forest Service intends to continue working closely with our public to 
address any concerns that might arise with regard to the planning rule 
and during forest plan development.
    Question. How much will the agency save in terms of time and money 
by implementing these new planning rules?
    Answer. Although the agency will save time and money on plan 
revisions, the overall costs to the agency will not decrease because 
time and effort will be redirected to plan monitoring and plan 
amendments. Agency time and money will be used more effectively. The 
plan revision process under the 1982 rule has generally taken 5-7 
years. Under the 2004 rule, we estimate that forest plan revisions will 
take approximately 2-3 years. This will enable the eventual shift of 
planning funds to activities which will keep the plans current.

                         MONTANA TIMBER ISSUES

    Question. There is a real problem in Montana with being able to 
provide a stable supply of timber from the national forests. In 
January, it was announced that the Owens & Hurst mill in Eureka is 
going to close and 90 jobs will be lost. When timber mills close it is 
not only devastating to the people who lose their jobs and the 
economies of the towns they live in, it also damages the Forest 
Service's ability to deal with forest health issues, particularly 
hazardous fuels reduction. If there is not a market for the small 
diameter wood that is the main component of hazardous fuels on our 
nation's forests, we will never be able to afford to remove all these 
fuels with appropriated dollars.
    What can the Forest Service do to improve this situation in Montana 
and other states where the supply of wood from our public lands is 
critical to keeping mills open?
    Answer. Currently almost all regions have the capability to expand 
their timber sale programs, depending on the availability of funds. In 
fiscal year 2005, appropriated Forest Products funds were moved among 
some regions, in part to help address timber industry infrastructure. 
However, our ability to move funds among regions is limited by the fact 
that there are widespread priorities and community needs across the 
country. Moving limited funds to help one region affects our ability to 
address priorities in another region. Current Salvage Sale fund 
balances are limited and do not provide options for additional timber 
harvest.
    Forest Products is not the only affected funding source, as 
increasing emphasis on timber activities in any place also generates 
additional needs for commensurate roads and land survey support.
    The agency is discussing a change in the measure of success in 
delivering the timber sale program, using timber volume sold instead of 
timber volume offered, to put more emphasis on results.
    Question. How many board feet do you expect to be able to offer 
this year compared to last?
    Answer. In fiscal year 2004 the Northern Region offered a little 
more than 232 million board feet of timber for sale. The target for 
fiscal year 2005 is about 226 million board feet, which is a result of 
slightly less total appropriated Forest Products funds plus Salvage 
Sale Funds being available for the Region. The Region currently has 
about 262 million board feet of timber involved in appeals and 
litigation, and we are seeking solutions to move this volume forward to 
sale.
    A nearly $3 million increase in fiscal year 2005 appropriated funds 
for the Northern Region is being used to offset less Salvage Sale Funds 
being available due to lower collections.
    The agency's fiscal year 2004 accomplishments showed an increase in 
volume offered for sale and volume sold over our estimate in the fiscal 
year 2004 President's Budget. This increase occurred in both live and 
dead volume. We anticipate a similar increase in both fiscal year 2005 
and fiscal year 2006.
    Question. Does the agency believe that it is critical that we 
maintain a robust timber mill infrastructure in order to deal with our 
hazardous fuels problem on the national forests?
    Answer. Yes, a viable timber infrastructure is essential for 
accomplishing our agency's vegetation management objectives and 
restoring fire-adapted ecosystems.

                            GRAZING PERMITS

    Question. There is a real problem with a backlog of expiring 
grazing permits that need to be renewed. Congress put a schedule in 
place for the renewal of these permits in the 1995 Rescissions Act. The 
agency's budget justification says that the Forest Service is only 
getting done 50 percent of the work that you need to do each year. In 
the fiscal year 2005 Interior appropriations bill the Committee 
provided additional funds to address this problem and also provided a 
Categorical Exclusion from NEPA for grazing allotments that met certain 
conditions.
    Has the Categorical Exclusion helped to increase the number of 
grazing allotments you expect to complete in fiscal year 2005?
    Answer. The Forest Service will be able to accelerate the 
completion of allotment planning beginning in fiscal year 2005 through 
fiscal year 2007 due to the Congressionally authorized use of up to 900 
categorical exclusions outlined in the Consolidated Appropriations Act 
of 2005 (Public Law 108-447). This helps the agency to a large extent, 
although at the present pace, the agency would complete about 85 
percent (including the 900 under the categorical exclusion) of the 
scheduled allotment analyses and plans by 2010, the original scheduled 
end date.
    Question. I see the fiscal year 2006 budget proposal reduces the 
program by $3.4 million and the number of grazing allotments processed 
declines by 33 percent. Why is that when we have such a large backlog?
    Answer. In addition to completion of grazing allotment NEPA 
analysis, the Grazing Management budget line item accomplishes other 
important work, including the management of grazing allotment acres to 
standard in accordance with forest plan standards and guidelines, 
development of new allotment management plans in concert with NEPA 
analyses, and performance of necessary implementation and effectiveness 
monitoring. The agency's initial focus on completion of NEPA work on 
approximately 317 allotments in fiscal year 2006 considered the need to 
balance overall grazing management program requirements with the 1995 
Rescission Act schedule and other critical resource needs. With the 
grazing allotment categorical exclusion (CE) authority as provided in 
Section 339 of the fiscal year 2005 Consolidated Appropriations Act, 
the agency is refocusing its efforts in order to accelerate the number 
of allotments processed and decrease the backlog. A total of 400-600 
allotments are expected to be analyzed with plans amended by the end of 
fiscal year 2005.

                            MAINTENANCE CUTS

    Question. According to the proposed budget for fiscal year 2006, 
the agency has a backlog of deferred maintenance of over $8 billion. 
But the budget proposes to cut the Capital Improvement and Maintenance 
accounts by $134 million which is a 26 percent reduction.
    Why is the agency cutting this account when the backlog of deferred 
maintenance needs is so high?
    Answer. To balance National programs while reducing the overall 
Forest Service budget, some reductions to Capital improvement and 
Maintenance were necessary in fiscal year 2006.
    The Forest Service expects to partially offset reductions to 
administrative site maintenance and construction with the enactment of 
the proposed Facilities and Land Management Enhancement Act. The Act 
will provide for the use of revenues from the sale of surplus 
administrative site properties. Another aspect of the legislative 
proposal is the creation of a working capital fund for administrative 
facility maintenance, whereby some maintenance costs would be funded 
through assessment to other programs. These proposals are not expected 
to fully make up for the difference between the fiscal year 2005 
enacted facilities funding and the fiscal year 2006 request. Most of 
the reduction would come from capital investments.
    Within the trails program, we plan to partially offset program 
reductions through the increased use of partnerships and volunteers.
    Question. How are you planning to address this enormous backlog of 
deferred maintenance?
    Answer. We anticipate that maintenance backlog will continue to 
grow; however, we have multiple efforts underway to help positively 
address backlog maintenance.
  --Through proposed Facilities and Land Management Act, which would 
        provide for the conveyance of administrative sites, we will 
        eliminate the deferred maintenance liability on those 
        facilities conveyed to other owners. At the same time those 
        revenues would replace other deficient facilities or perform 
        needed rehabilitation work on existing facilities.
  --Developing a working capital fund (WCF) for all administrative 
        buildings provides a direct incentive for local staff to reduce 
        facilities and optimize their space requirements, because funds 
        not used in maintaining facilities are available for other 
        program needs.
  --Through facility master planning and developed recreation site 
        master planning efforts, we are identifying the optimum 
        location, size and number of facilities we can sustain into the 
        future.
  --Through the Road Analysis Process, we are taking a realistic look 
        at budgets and identifying roads that can be closed or 
        eliminated, or the road standard downgraded.

                        HAZARDOUS FUELS FUNDING

    Question. The agency has increased the hazardous fuels reduction 
budget by $19 million. Over the long term, the only way to reduce the 
severity of our fire seasons is by removing the excess fuels that we 
have in our forests. Recently, the GAO issued a report that stated that 
the Forest Service and the Department of the Interior had not issued 
sufficient guidance for prioritizing hazardous fuels reduction 
projects.
    Given that the hazardous problem is so large and resources are 
scarce, the agencies must have a way of prioritizing the most important 
acres for treatment.
    How would the agency respond to GAO's criticism that the Forest 
Service has not prioritized these projects nationally?
    Answer. Hazardous fuels activities under the Healthy Forests 
Initiative, the Healthy Forests Restoration Act, and the National Fire 
Plan are coordinated between the Departments of Agriculture and 
Interior through the Wildland Fire Leadership Council. This 
coordination covers prioritization and overall general management 
objectives including accountability for activities and oversight of the 
development of measures of fuel condition. Fuel characteristics, fire 
regime, and vegetation are being assessed to assist in identifying 
areas where activities need to be prioritized. This information is used 
in addition to the criteria associated with wildland urban interface 
needs and needs for treatment associated with other critical areas such 
as municipal watersheds and protection of endangered species habitat.
    In addition to the above criteria and management direction, our 
national fuels treatment program priorities are developed annually to 
utilize the latest science and information in cooperation with 
Department of Interior staff, and transmitted to regions, forests, and 
districts. That guidance shapes prioritization decisions at the 
individual National Forests and Ranger Districts, where fuel treatments 
are evaluated on a site specific basis. In addition, other resource 
treatments for wildlife habitat improvement, watershed, vegetation 
management, and recreation are also being designed to address fuels 
treatment needs. Those combined objectives can help address fuel 
reduction and condition class improvement goals. The timing and 
placement of these treatments on the landscape are evaluated with our 
partners at state, tribal, local, and other federal agencies. Many 
states have formal inter-agency groups to assist in this process and we 
actively promote such collaboration. Projects covered by a Community 
Wildfire Protection Plan are also given a priority and emphasize the 
diverse partners that play a role in the prioritization process. These 
collaborative partnerships are very well established and successful in 
some areas, and in other locations some of these relationships are 
still being formed. Allocation of funds to individual National Forests 
for these projects is at the discretion of the Regional Foresters.
    Further approaches are being developed and field-tested that 
integrate all of the criteria and risks in an attempt to use the 
diverse data, needs, and objectives in a repeatable and methodological 
fashion.
    Question. How many acres do you plan to treat in 2006 compared to 
2005?
    Answer. We plan to treat 1.8 million acres in both fiscal year 2005 
and fiscal year 2006. In fiscal year 2005 we plan to treat at least 
1,281,000 acres in the wildland-urban interface (WUI). The remaining 
acres will be treated outside of the WUI with an emphasis on highest 
departure from a reference condition for vegetation, fuels and 
disturbance regimes. Additionally, an estimated 700,000 acres will be 
treated as a secondary benefit of other land management activities.
    In fiscal year 2006 we plan to treat at least 1,450,000 acres (80 
percent) in the WUI. Additionally, the agency plans to have a fully 
integrated fire-adapted ecosystem restoration program that would 
generate an additional 1,000,000 acres from other land management 
programs.
    Question. Can you explain your proposal to move the funding for 
hazardous fuels reduction from the Fire account to the National Forest 
System account?
    Answer. The transfer of the hazardous fuels budget line item to the 
National Forest System (NFS) appropriation would provide better 
alignment with current Forest Service efforts to integrate all 
vegetation treatment activities. The majority of vegetation treatments 
and other related terrestrial and aquatic activities are funded with 
NFS appropriations.
    Question. Why is this transfer necessary?
    Answer. Currently, a high priority for the use of NFS funds and 
other related appropriations is ecosystem restoration, including 
restoration of fire-adapted ecosystems both previous to and after 
significant disturbance events (wildland fires, insect and disease 
epidemics, storm damage, etc.). An integral part of restoration 
includes identifying desired future vegetative conditions and designing 
treatments to achieve those conditions.
    This proposed shift in appropriation would allow for better 
internal agency alignment of programs. As a result, we anticipate more 
integrated and efficient program management leading to the achievement 
of common vegetation objectives.

                       FOREST HEALTH PROGRAM CUTS

    Question. The Committee is concerned about the large cut ($29.5 
which is equal to 29 percent) that is proposed in the fiscal year 2006 
budget for the Forest Health program in State and Private forestry. 
This program helps to monitor and treat millions of acres of state, 
federal, and private lands for insects, diseases and invasive weeds.
    How many fewer acres will be treated as a result of these cuts?
    Answer. In fiscal year 2005, we plan to treat approximately 918,000 
acres for control of insects, diseases, and invasive plants. In fiscal 
year 2006, our target is 656,000, a reduction of about 28 percent.
    Question. How many acres nationally need treatment for insects and 
disease?
    Answer. In fiscal year 2005, the national request for treatment 
projects for forest insects and diseases totaled 1.2 million acres and 
we were able to fund approximately 76 percent of that request. We 
expect the treatment needs requests in fiscal year 2006 to be as high 
or higher than those we received this year. The continuing drought in 
areas of the West will also increase demand for projects to treat acres 
at risk to western bark beetle attack. The treatment need for invasive 
plants control projects on state and private lands is on a steep upward 
trend; in fiscal year 2005 we were able to fund programs in 27 states.

                STATE AND VOLUNTEER FIRE ASSISTANCE CUTS

    Question. The state fire assistance program is very important in 
providing grants for equipment and giving technical assistance to local 
fire departments. The fiscal year 2006 budget request proposes to 
reduce this program by over $22 million, which will almost cut in half 
the number of communities assisted by the program.
    Is this a wise cut when frequently it's the local firefighting 
forces that are first on the scene of a wildfire?
    Answer. Although the proposed funding in State Fire Assistance 
decreased the proposed funding for Volunteer Fire Assistance (VFA) 
remains the same as appropriated in fiscal year 2005. VFA funding is 
aimed specifically at building and maintaining fire fighting capacity 
in fire departments serving communities of less than 10,000 people. 
Rural and volunteer fire departments provide a first line of defense in 
coping with fires and other emergencies in rural areas and communities. 
These departments provide nearly 80 percent of initial attack on 
wildfires in the United States. We anticipate that maintaining current 
funding levels in Volunteer Fire Assistance will help maintain rural 
fire fighters capability to respond to National Forest fire emergencies 
as they have in the past.
    Question. Isn't it true that other grant programs for firefighters 
through agencies like FEMA are not specifically for wildland 
firefighting so this is the only grant program for this purpose?
    Answer. Although FEMA programs are not specifically aimed at 
wildland fire fighting capability and rural fire departments, those 
departments are not excluded from FEMA grant programs. They compete for 
grant funding with other fire departments.

                       FIRE READINESS CAPABILITY

    Question. Over the last several years, the Committee has had some 
difficulty working with the agency on funding for the Fire Preparedness 
budget. This is the program that puts in place firefighters, engines, 
and other basic firefighting assets at the start of the fire season. In 
fiscal year 2005, the Committee had to add $20 million to the request 
for preparedness in order to maintain the same number of firefighters 
and engines as the agency had in the previous year.
    In the budget for fiscal year 2006, you have reduced the program by 
roughly a half million dollars, but your budget justification claims 
that you will hire more firefighters and deploy more engines. How is 
this possible with less money?
    Answer. The agency will maintain a level of readiness approximate 
to that attained in fiscal year 2004. This level will be achieved 
through efficiencies implemented in the program leadership functions 
and agency-wide overhead.
    Question. Can the agency assure the Committee that at the level of 
funds requested for fiscal year 2006 you can maintain readiness at 
current levels?
    Answer. Yes, the Forest Service is committed to maintaining 
firefighting readiness comparable to the fiscal year 2004 level without 
sacrificing firefighter safety. An errata sheet was submitted 
identifying the Forest Service's resource capability consistent with 
the President's Budget and actions relative to the agency's airtanker 
fleet capability. The updated errata sheet specifies a capability 
comparable to the previous year. The content of that errata sheet is as 
follows:
  --Employ 10,480 firefighters.
  --Employ 399 prevention technicians.
  --Employ 277 smokejumpers.
  --Maintain 66 Type I crews (hotshot crews).
  --Maintain 995 engines.
  --Maintain 63 water tenders.
  --Maintain 123 dozers.
  --Maintain 29 tractor plow units.
  --Maintain 86 Type I, II, and III helicopters for local mobilization.
  --Maintain 7 Type II efficiency helicopters for national 
        mobilization.
  --Maintain 6 Type I helitankers for national mobilization.
  --Maintain a fleet of up to 20 airtankers. However maintain the 
        overall production capability of our prior fleet of 33 
        airtankers through the use of single engine airtankers (SEATS), 
        Type I helicopters, and Type II helicopters.

                              AIR TANKERS

    Question. In 2004, the Forest Service and the Department of the 
Interior were unable to use the majority of the large air tanker fleet 
for aerial fire suppression operations. The agencies replaced these 
aircraft with single engine air tankers (SEAT's) and helicopters. 
Eventually eight P-3 Lockheed aircraft were returned to the air tanker 
fleet and the agencies were contracting to review the service life of 
the remaining air tanker fleet.
    What is the status of the reviews of the large air tanker fleet to 
determine their operational service life?
    Answer. An operational service life for the P2V is currently being 
developed by Avenger Aircraft and Services. Contracts for the Douglas 
aircraft (DC-4, DC-6, and DC-7) are currently being negotiated.
    Question. If the aircraft reviews have been started, when do you 
expect a final report on the operational service life of the aircraft?
    Answer. A preliminary operational service life is scheduled to be 
available on June 1, 2005. This preliminary operational service life 
will provide enough information to determine if some aircraft can be 
returned to service. A final report will be available when operational 
loading data in the wildfire environment has been collected and an 
operational service life for the wildfire environment is determined.
    Question. Will the final reports on the aircraft service life be 
completed before the start of the 2005 wildfire suppression season?
    Answer. No.
    Question. If the aircraft are not accepted, what are the plans for 
replacing the large air-tanker fleet and at what additional cost?
    Answer. Short term plans for the 2005 wildfire season call for 
replacing large airtankers with helitankers, type I helicopters, and 
single-engine airtankers. We anticipate the cost of these resources 
will be comparable to 2005 airtanker costs.
    Question. What are the long-term plans to modernize the air tanker 
fleet?
    Answer. Long term plans to modernize the fleet include:
  --Contractor-owned and operated aircraft such as the BAe 146 and 
        Boeing 747.
  --Government-owned ex-military aircraft such as the P-3 Orion and the 
        S-3 Viking operated by contractors as government furnished 
        equipment.
  --Development of a purpose-built airtanker operated by contractors as 
        government furnished equipment.
    Question. What aircraft are being reviewed, what is the timeline to 
replace the existing aircraft, and what role will the existing aircraft 
companies on contract have in this future organization?
    Answer. Aircraft currently under review are ex-military P-3 and S-3 
aircraft. Replacement timelines vary from 6-14 months depending on the 
aircraft. Roles for existing airtanker companies may include possible 
contracts for airtanker conversions, maintenance, and pilot services.

                         FIRE SUPPRESSION COSTS

    Question. The Committee is concerned about the rising costs for 
firefighting. The average annual cost of fire suppression for the 
Forest Service over the last 5 fiscal years (fiscal year 2000-fiscal 
year 2004) has been $958 million. By way of comparison, in the 5 years 
prior to that it was only $352 million. In the fiscal year 2005 
appropriations bill the Committee included several measures to address 
these rising costs, such as putting in place an independent panel to 
review expenditures on large fires, and devoting personnel to analyzing 
the most efficient means to procure the hundreds of millions of dollars 
worth of supplies that are needed by the fire program each year.
    Please provide the Committee with an update on how you have 
responded to these instructions from the Committee?
    Answer. The answer is under review by the USDA's Under Secretary 
for Natural Resources and the Environment.
    Question. Please describe what level of savings the agency might 
expect to achieve by putting these measures in place?
    Answer. The agency is not prepared to make a definitive cost saving 
estimate, except for individual fires that have been reviewed. Because 
all fires are unique, projecting savings from a small sample across all 
large fires would not provide the information needed to target specific 
cost saving opportunities. However, completion of the cost benefit 
analysis and associated implementation strategy, the Office of the 
Inspector General's Large Fire Cost review, and the method of supply 
analysis should provide the foundation for such an estimate later this 
calendar year.

                  WILDLAND FIRE OUTLOOK FOR THIS YEAR

    Question. The Committee is very concerned about the drought 
conditions that persist in Montana and much of the Interior West and 
what that will mean for this year's fire season. Mountain snowpack is 
at or near record low levels in parts of Washington, Oregon, Idaho and 
Montana.
    What do the agency's fire models predict for this year's fire 
season in the Interior West?
    Answer. The Wildland Fire Outlook--February through August, 2005 is 
per the National Interagency Fire Center's Predictive Services Group, 
and was issued January 26, 2005.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The outlook for this year's fire season shows above normal fire 
potential in the Pacific Northwest, Northern Rockies, the lower 
elevations of the Great Basin, and over much of Florida. Some key 
points of the upcoming season include:
  --Mountain snow packs are at or near record low levels in portions of 
        Washington, Oregon, Idaho, Montana and northwest Wyoming. This 
        situation, combined with long term drought and vegetation 
        mortality from insect damage, will increase fire potential in 
        portions of the West.
  --Winter storms have brought heavy rain and snow in California, 
        Colorado, and the Southwest. This weather will help moderate 
        the fire season in the mountains but will increase fire 
        potential in the lower elevations of Nevada, Utah, and the 
        California deserts, due to heavier concentrations of fine 
        fuels.
  --Florida has been drier than normal so far this winter. This 
        situation, combined with downed trees from the 2004 hurricanes, 
        will lead to the potential for an active fire season.
    Question. Nationally, does the Forest Service expect a severe fire 
season in 2005?
    Answer. Alaska.--Snowpacks are currently running near to well above 
normal over most of the state. However, snowpack plays only a small 
part in determining the intensity of the summer fire season. At this 
time, the fire season outlook calls for equal chances of an above, 
below, and normal fire season. If the late spring through June 
temperatures turn out to be warmer than normal, then the potential for 
an active fire season would increase.
    West.--The abundant winter precipitation should result in a later 
start and the potential for a less severe fire season in the Southwest. 
The areas with the highest fire potential extend from the Cascades 
across Idaho and into Montana and northwest Wyoming. This prediction is 
primarily due to the very low snowpack and a warmer than normal spring 
forecast. However, there are still many unknowns; such as the character 
of the snowmelt and summer lightning pattern.
    South and East.--In the South, the main area of concern is in 
Florida where a dry winter, downed fuel buildup from the hurricanes, 
and localized insect mortality have lead to the potential for an active 
fire season. The fire season in the East is expected to be normal to 
below normal, but may begin earlier than normal. This prediction is due 
to below average snow cover in north-central states which could make 
fine fuels available for ignition earlier in the season than usual.

                     OFF HIGHWAY VEHICLE RULEMAKING

    Question.The Chief has identified unmanaged recreation as one of 
the four major threats to our national forests. The agency plans to 
issue a new national policy dealing with the use of Off Highway 
Vehicles (OHV's) in national forests. Obviously, this is an issue which 
is very important to many of our constituents who use OHV's.
    When does the agency expect to issue a final rulemaking on this 
issue?
    Answer. The Forest Service hopes to issue a final travel management 
regulation in spring 2005.
    Question. Does the Forest Service expect the rule to place much 
greater restrictions on the use of OHV's?
    Answer. The proposed rule would require designation, at the local 
level, of roads, trails, and areas for motor vehicle use. Once 
designation is complete, the proposed rule would prohibit use of motor 
vehicles off the designated system. The proposed rule provides a 
national framework for local decisions--which routes and areas are 
designated for motor vehicle use would be determined at the local 
level, after public involvement and coordination with state, local, and 
tribal governments.
    The proposed rule represents a shift to a designated system of 
routes, rather than open cross-country travel. This shift is called for 
due to the expansion of OHV availability and technology. The agency 
expects that some existing unauthorized routes would be designated, 
thereby increasing the system of managed motor vehicle trails. The 
agency anticipates that other existing unauthorized routes will not be 
designated, and use on these routes will be prohibited. Determining 
which routes fall into each category is a local decision.
    Question. What has the agency been hearing from OHV user groups 
about the need for a national policy on OHV use?
    Answer. The Forest Service received over 81,000 comments on the 
proposed regulation, reflecting a wide range of interests and points of 
view. Some respondents called for a ban on OHVs on national forests and 
grasslands, while others objected to any limits on OHV use. Many 
respondents, including several national OHV user groups, endorsed the 
concept of managing OHV use on a designated routes basis. Concerns were 
expressed about the agency's funding, commitment, and ability to 
enforce designations.

                NEED FOR SPECIAL FIREFIGHTING ALLOCATION

    Question. Last year, the Committee was able to provide a special 
allocation of $400 million to deal with the skyrocketing costs of the 
firefighting program and the impacts of heavy borrowing. These funds 
were available only after the agency had expended all of its regularly 
appropriated funds. The agency needed to tap this allocation for $150 
million in what was a pretty light fire season compared to what we have 
experienced over the last 5 years.
    Was having this special allocation effective in terms of preventing 
the need to borrow from non-fire accounts?
    Answer. The emergency supplemental funding for fire fighting 
allowed the agency to execute emergency fire suppression 
responsibilities without disrupting other agency programs. As you know 
we spent $726 million in fire suppression, which exceeded the amount 
appropriated by $125 million. We were able to make use of the emergency 
contingency rather than transfer from other appropriated accounts and 
helped lessen inefficiency and program disruptions caused by mid-season 
fire transfers.
    Question. When the agency doesn't have to borrow funds from other 
programs is it able to determine how much more of the regular program 
of work can get done? For example, was the Forest Service able to offer 
more board feet for sale, or treat additional acres for hazardous 
fuels?
    Answer. To underscore the benefits of avoiding fire transfer we 
note that we significantly exceeded key performance targets including 
Timber Volume offered (+110 percent), Hazardous fuels acres treated 
(+113 percent), Noxious weeds acres treated (+154 percent), Grazing 
allotment NEPA (+110 percent), and miles of Roads and Trails maintained 
(+152 percent). We do not believe we could have experienced this same 
level of performance if we had to transfer funds for Fire Suppression.
    Question. Does the agency believe that a similar mechanism is 
needed for fiscal year 2006 to prevent the massive borrowing that has 
happened in recent years?
    Answer. In fiscal year 2006 the President's budget is $700 million 
for suppression. The Forest Service will also have any remaining 
unobligated balances available for fire suppression. If a severe fire 
season occurs in fiscal year 2006 resulting in suppression costs that 
exceed available funding, additional funds will be redirected from 
other agency programs. The agency is working aggressively to contain 
suppression costs by developing effective and efficient wildfire 
suppression methodologies that provide for public and firefighter 
safety, while striving to minimize the need for transfers from other 
programs.

                         BACK COUNTRY AIRSTRIPS

    Question. The Committee has heard concerns that our nation's parks 
and forests are being closed off to visitors from the air who utilize 
airstrips on public lands known as back country airstrips. These same 
airstrips are also critical for pilots flying over rural areas like 
Montana, who either encounter an emergency or have to wait out less 
than desirable weather.
    What is the Forest Service's position as it relates to protecting 
aircraft access and for preserving back country airstrips?
    Answer. Backcountry airstrips are generally managed for ``emergency 
use only'' with the understanding that sporadic use will occur. Over 
the years, the Forest Service has recognized that some level of 
maintenance is necessary at these airstrips for them to continue to 
function as emergency airstrips. Annually, Forest Service staff 
inspects each backcountry airstrip to assess current conditions and 
determine any maintenance needed to keep them serviceable. Forest Plan 
direction provides for continued maintenance of these airstrips in 
order to keep them functional.
    For example in the State of Idaho, the Forest Service is currently 
working closely with the state in several areas. We are working with 
the Idaho Transportation Department, Division of Aeronautics and the 
Idaho Airstrip Network Steering Committee on an Idaho Airstrip Action 
Plan, part of the transportation plan for the entire state, that 
includes all backcountry airstrips administered by the Forest Service. 
We are working with the Idaho Division of Aeronautics on a landing 
strip classification system which will provide the public with basic 
information on each landing strip in terms of facilities, maintenance, 
and adjacent facilities and activities. We are also working with the 
Division of Aeronautics in development of an ``Operations and 
Maintenance Plan'' format for landing strips located in the Frank 
Church River of No Return Wilderness, leading to a consistent and 
collaborative approach in management of these backcountry airstrips.
    Question. How many of these airstrips have been closed in the past 
5 years?
    Answer. The Forest Service has not closed any backcountry airstrips 
to public access in the past five years.
    Question. Do you have any plans for closing airstrips in the 
future?
    Answer. At this time, the Forest Service does not have any plans to 
close backcountry airstrips.

                         NEW FIRE TECHNOLOGIES

    Question. The Committee is aware of several new kinds of 
technologies that are being tested and considered for wider use by the 
fire program. One of these is an enhanced infrared sensor system called 
FIREWATCH. Please provide the Committee a more detailed discussion of 
the technical aspects of the FIREWATCH system. In particular, describe 
the enhanced vision capabilities of the infra red sensors during 
moderate to heavy smoke conditions.
    Are the mapping capabilities compatible with other software systems 
already deployed by the USFS/BLM?
    Answer. The FIREWATCH aerial supervision/remote sensing program was 
developed to fulfill aerial supervisory needs and improve incident 
management situational awareness. The aircraft is a Bell 209 Cobra 
helicopter that has been completely rebuilt, rewired, and has all 
weapons systems removed. The aircraft is equipped with many integrated, 
technologically advanced systems. These systems will assist the Air 
Tactical Group Supervisor (ATGS) in supervising aircraft over an 
incident, and will also gather and transmit real-time information for 
incident management to enhance operational efficiency.
    The aircraft is equipped with state-of-the-art high tech systems:
  --Two separate infrared sensors
  --Digital low light color camera
  --Laser range finder
  --Laser illuminator
  --Type 1 ATGS communication system
  --Live infrared sensor, color camera video. And audio are transmitted 
        through a television quality airborne microwave transmission 
        system
  --ARCGIS (ESRI shape file) interagency fire program compatible 
        mapping data system
  --Real-time satellite map data transmission capability and/or USB 
        Mass Storage Device
  --Geographically referenced inertial navigation system
    The FLIR is integrated to work with an Avalex moving-map program 
that can display street, topographic, and aeronautical maps. The 
infrared sensor provides the capability to see fires through smoke and 
haze day or night. Since the infrared imager is integrated with the 
onboard mapping system, it is able to very accurately determine the 
position of items of interest, which are observed on the ground. By 
directing the sensor along the perimeter of a fire the system can 
accurately map the fire. Immediate delivery of map data is made 
possible through a data transmission kit equipped satellite phone. 
Video and infrared data and all cockpit audio are also recorded on an 
Avalex system digital video (DVD) recorder. The aircraft is equipped 
with a multi-channel microwave transmitter capable of down linking real 
time color or infrared camera images to a portable microwave receiver 
and/or data recovery van.

FIREWATCH Benefits to Incident Management
    Visibility.--The Bell 209 seating arrangement allows the ATGS a 
full 300+ degree horizontal and unlimited vertical field of vision.
    Maneuverability.--Capability of hovering and slow flight provides 
the aerial supervisor a superior platform for analyzing critical 
situations. Target determination, reconnaissance, and situational 
interpretation are greatly enhanced, therefore allowing more accurate 
interpretation of situations for firefighters.
    Human Aiding Technology.--First identified by the Tactical Aerial 
Research Management Study (TARMS) as a future component to enhance the 
aerial supervisory mission, advanced technology provides incident staff 
real-time information critical for situational awareness and cost 
effective decision-making. Live video (color camera or infrared sensor) 
and audio can be sent via microwave to an incident command post for 
immediate interpretation by incident staff. Infrared capability allows 
the image of a fire's perimeter to be viewed regardless of smoke. 
Transmission of map data can be emailed in flight or delivered by 
removable hard drive (USB Mass Storage Device). FIREWATCH can deliver a 
portable ``briefcase'' downlink receiver; this monitor enables tactical 
ground firefighters to receive FIREWATCH live video transmissions while 
actually ``on the line''. DVD recordings and map data can be delivered 
to incident planning staff for interpretation to determine effective 
and efficient fire planning.
    Direct Communications.--The helicopters ability to operate locally 
and land at an incident provides the opportunity for aerial supervisors 
to meet directly with incident staff. Eye-to-eye discussion and 
delivery of real-time intelligence can be an invaluable strategic 
asset.
    Speed.--The Cruise speed of the Bell 209 Cobra is similar to many 
fixed wing air tactical aircraft in use today (cruise speed 160 statute 
miles per hour), and mission flight endurance of up to 3.3 flight 
hours.
    Crew Comfort.--A fully functional heating and air conditioning 
system reduces fatigue and provides the flight crew a very comfortable 
working environment for extended flights.
    Cost.--The Bell Model 209 FIREWATCH helicopter provides 
capabilities normally provided to incidents by two aircraft for the 
cost of one. Normally an aerial supervisory aircraft is ordered for an 
incident, and then a second aircraft is ordered to provide remote 
sensing information (Aircraft equipped with infrared sensor and/or 
mapping capability). Intelligence gathering missions normally do not 
require the commitment of an aircraft for a full day, but often, full 
day costs are incurred. FIREWATCH is staffed and operated by fully 
qualified Air Tactical Group Supervisors (ATGS) that can provide relief 
Aerial Supervisory coverage between intelligence gathering missions, 
consequently reducing the requirement for a relief ATGS. Occasionally, 
smoke inversion may limit aircraft operations, but FIREWATCH helicopter 
operations may continue. FIREWATCH can reduce incident costs by 
fulfilling helicopter coordinator duties.
    Question. In testing, did the real time mapping capabilities meet, 
or exceed, expectations?
    Answer. In initial testing and in the first season of fielding the 
FIREWATCH system, it clearly exceeded expectations. Furthermore, 
acquired system improvements will increase speed, integration, and 
capabilities of the mapping system. The agency is presently working on 
a system that will allow FIREWATCH information to have real time 
computer-online capability. This capability will be on web-sites to 
fire managers as well as public service for emergency information.
    Question. Please provide the Committee a detailed discussion of 
other platforms besides helicopters to which the FIREWATCH suite could 
be applied and whether the system could be ``modularized'', or shared 
between various platforms?
    Answer. The FIREWATCH system initially used a military surplus AH-1 
Cobra airframe as a surrogate. The AH-1 airframes were readily 
available, inexpensive, and could be rapidly outfitted. The focus 
throughout the initial fielding was, however, to design a system that 
could readily be installed and fielded on any other airborne platform. 
As a result, the FIREWATCH system is totally modularized and can be 
fielded on practically any other airborne platform. Installation design 
provides for readily transferring the system from one aircraft to 
another. While installation on a specific aircraft may require FAA 
approval, numerous aircraft and airframes will be able to accommodate 
FIREWATCH.
    Question. What are the comparative costs and cost savings 
associated with deployment of the FIREWATCH system on multiple 
platforms?
    Answer. The comparable equipment cost for the technology suite 
installed in the FIREWATCH aircraft will be similar for any aircraft 
platform. The conceptual design of the FIREWATCH technology suite 
included the objective of compatibility for installation in any future 
aerial platform. Cost for research and development have already been 
borne in the engineering of the first FIREWATCH aircraft. No further 
major development costs would be necessary on other aerial platforms.
    Question. To date the FIREWATCH system has only been deployed in R-
5 California but it appears this coming year the heavy fire incidents 
are likely to fall in other parts of the west, primarily the Northern, 
Intermountain, Pacific and Northwest Regions. Does the agency plan to 
test the FIREWATCH system in these other parts of the country?
    Answer. Yes. FIREWATCH is considered to be a national resource 
available to any Federal, state, or local agency. FIREWATCH recently 
responded to a request from the Department of the Interior, Office of 
Surface Mining, to determine locations of underground coal seam fires 
with its infrared sensor and mapping systems.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy

                             FOREST LEGACY

    Question. In fiscal year 2003, 2004, and 2005, how many 
applications did the Forest Service receive for Forest Legacy proposals 
and what was the total dollar amount requested? For each of these 
years, how many applications was the Forest Service able to fund?
    Answer. Below is a table identifying the number and funding level 
for all proposed and funded projects for fiscal year 2003, 2004, and 
2005, including new state start-ups.

----------------------------------------------------------------------------------------------------------------
                                                          Number of
                          Year                                           Amount of      Number       Amount
                                                          proposals      proposals      funded    appropriated
----------------------------------------------------------------------------------------------------------------
2003....................................................       129       $229,371,725       43       $64,682,000
2004....................................................       119        265,375,541       44    \1\ 67,298,000
2005....................................................        81        162,026,975       39    \2\ 59,496,000
----------------------------------------------------------------------------------------------------------------
\1\ Of which $6,914,000 is from prior year funds.
\2\ Of which $7,198,000 is from prior year funds.

 NORTHERN FOREST LANDS COUNCIL--NORTHEAST STATE FORESTERS ASSOCIATION 
                               REPORTING

    Question. Last year was the tenth anniversary of the publication of 
the Northern Forest Lands Council's ``Finding Common Ground: Conserving 
the Northern Forest.'' The Forest Service was instrumental in convening 
the Council and publishing the report. It also has been the key federal 
partner in implementing the report's recommendations. The Northeast 
State Foresters Association published a report assessing the region's 
progress in meeting those recommendations. Is the Forest Service 
following up on that assessment and how can the Forest Service help the 
region address recommendations that NEFA identified as unmet?
    Answer. The Forest Service's Northeastern Area (NA) office has been 
integrally involved in the efforts spearheaded by NEFA (North East 
State Foresters Association) at the ten year anniversary of the 
original Northern Forest Lands Council report. In these efforts NEFA 
analyzed changed conditions in the Northern Forest region, assessed how 
well the original 37 recommendations had been implemented, and 
recommended what still needed to be done.
    In the last two years NA provided NEFA 4 grants totaling $89,900 to 
do the assessment and the subsequent follow-up work. That $89,900 was 
matched with $89,900 in nonfederal contributions. In addition NA has 
provided a liaison on the NEFA team, the field representative from its 
Durham, NH Field Office. NEFA has not yet published the final 
assessment but will shortly. The most recent grant provides NESFA 
$35,000 in funds, matched with an equal amount of nonfederal support, 
to publish, distribute, and spread the word about the assessment, 
including briefing the 4 governors (Vermont, Maine, New Hampshire, and 
New York) who named team members to the assessment ``Forum'' working 
group. The Forest Service's Durham Field Office public affairs 
specialist will assist NEFA in designing and implementing an outreach 
strategy to notify the public that the assessment is complete.
    As the draft NEFA report notes, the assessment efforts at the 10th 
year anniversary were done with a tiny fraction of the dedicated $5 
million in federal, state, and other resources that attended the 
original Northern Forest Land Council's work. NA will continue to 
support the work of NEFA, within the limits of its annually 
appropriated funding in programs such as Forest Stewardship, Economic 
Action Programs, Forest Health, and Urban and Community Forestry.
    The draft assessment report recommends that the governors of Maine, 
New Hampshire, Vermont, and New York embark on an initiative that 
provides a sustained focus on the challenges and opportunities common 
to the Northern Forest geographies of the 4 states.
    Recommendation 1.--Invest public and private resources to develop 
and implement community and economic development strategies across the 
region to reinvigorate the rural economies of the Northern Forests.
    Recommendation 2.--Continue public and private investment in 
conservation and forest stewardship efforts.
    Recommendation 3.--Support private forest landowners in practicing 
sustainable forest management while encouraging public access to 
private land for recreation.
    Recommendation 4.--Create a collaborative regional effort to ensure 
the implementation of the initiatives in the assessment report with the 
governors initiating a continuing coordinating mechanism to provide a 
sustained focus on the challenges and opportunities common to the 
Northern Forest geographies of the four states.
    The scope of such an initiative far exceeds the expected program 
funding the Forest Service receives in the applicable programs. 
However, we will continue to address unmet needs identified in the 
Northern Forest Lands Council 10th Anniversary Forum Final Report a bit 
at a time as provided by our current levels of program funding.

            GREEN MOUNTAIN NATIONAL FOREST LAND ACQUISITION

    Question. The Forest Service has recommended that $400,000 be 
reprogrammed from the Green Mountain National Forest's land acquisition 
account for other projects outside the Forest. How will this 
reprogramming affect the Green's land acquisition program? In 
particular, are there pending projects that will be delayed because of 
the reprogramming or lack of funds?
    Answer. The fiscal year 2005 Consolidated Appropriations Act of 
2005, Public Law 108-447, reduced the Land Acquisition program's 
unobligated balances by $11million. The Eastern Region's share of this 
reduction was $1.9 million. The Region analyzed each Forest's carryover 
balances and proportionately assessed those forests that could not 
expend all of their carryover balance during fiscal year 2005. It was 
determined that the Green Mountain National Forest's contribution to 
the reduction would be $400,468 based on equitable forest shares of 
available carryover within the Region. It is not expected that this 
assessment will delay any pending projects in fiscal year 2005 on the 
Green Mountain.

                  NORTHEASTERN RESEARCH STATION BUDGET

    Question. What is the impact of the President's fiscal year 2006 
budget recommendation for the Northeastern Research Station, 
particularly in the area of recreation research?
    Answer. The President's fiscal year 2006 budget request for the 
Northeastern Research Station proposes no recreation research. Funding 
is directed to higher priority programs such as Forest Inventory and 
Analysis.
                                 ______
                                 
             Questions Submitted by Senator Byron L. Dorgan

                              LEAFY SPURGE

    Question. In fiscal year 2003 and fiscal year 2004, the Interior 
bills contained $300,000 for leafy spurge control in North Dakota in an 
effort to address the weed problem on the grasslands. Last year, for 
fiscal year 2005, that amount was increased to $350,000.
    Please tell the committee what progress has been made thus far with 
these funds? For example, how many acres have been treated? Which 
entities have been doing this work? And how many more acres remain to 
be treated?
    Answer. Along with Forest Service staff, the following entities 
have participated in the treatment of noxious weeds: Sheyenne Valley, 
Little Missouri, McKenzie County and Grand River Grazing Associations; 
Billings, McKenzie, Slope, Golden Valley, Ransom and Richland County 
Weed Control Boards; Rocky Mountain Elk Foundation, State of North 
Dakota, and U.S. Department of Agriculture. Most of the treatment of 
noxious weeds through chemical application has been by the Grazing 
Associations and County Weed Control Crews. The Forest Service has been 
most heavily involved in the movement of leafy spurge beetles and other 
methods of weed control.
    The Dakota Prairie Grasslands (DPG) noxious weed program is an 
integrated approach to weed suppression and eradication, and includes 
herbicide control, biological control, goat and sheep grazing, 
mechanical and re-vegetative treatments, and education and prevention. 
In 2002, 13,694 acres of noxious weeds were treated across the DPG. In 
2003, 16,536 acres were treated, and in 2004, 10,958 acres were 
treated. Future treatment needs cannot be accurately described in terms 
of acres remaining to treat. The target species is aggressive and 
persistent, and a long-term treatment strategy involving successive 
treatments over an extended period is most effective. The DPG is 
working on a definitive weeds inventory; but it requires time and 
funding to implement. The benefits of fully implementing this type of 
inventory needs to be weighed against diverting funds from immediate 
treatment needs.
    Question. I am also concerned that this work is not going to be 
continued in fiscal year 2006. Under the President's request, the 
Vegetation and Watershed account is up by $4.1 million, but your budget 
justification doesn't specify any set amount for leafy spurge control 
on the grasslands. Does the President's fiscal year 2006 budget request 
contain the $350,000 needed to continue this work?
    Answer. The war on weeds will be a part of our program in fiscal 
year 2006 and well into the future. Leafy spurge is a very difficult 
species to eradicate. Older plants will be the focus of non-chemical 
suppression efforts, such as goat grazing, while young/new infestations 
are targeted for aggressive herbicide control. Biological control will 
also be used to reduce and control spurge populations.

                           GRAZING ALLOTMENTS

    Question. The Forest Service is in the process of completing its 
scientific review of grazing allotments on the Dakota Prairie 
Grasslands (DPG). The Scientific Review Team's final report is due out 
in the near future and early estimates predict grazing activities on 
the grasslands could be cut by 15 to 35 percent.
    One of the reasons associated with the sharp cuts is that the 
management planning strategy has moved from livestock emphasis to 
ecosystem restoration. The management plan emphasis is included in the 
Dakota Grassland Plan and the move from a livestock emphasis to an 
ecosystem restoration plan has already been appealed by the ranchers 
and the ranchers lost. I believe we can have both and that developing 
an appropriate management plan is not an either/or proposition.
    Often ranchers get unfairly criticized for what those in some 
sectors refer to as ``abusing the land.'' However, as someone familiar 
with ranching, I think the ranchers themselves are the best people to 
ensure that the land they graze remains environmentally sound because 
it directly affects their livelihoods and economic situations.
    Recently the Forest Service proposed a new rule that would put 
social and economic interests on the same level as environmental 
interest when developing management plans. I believe this common-sense 
approach is needed because too often we dismiss economic and social 
consequences that impact local towns and communities.
    My question is this: Will the Forest Service review the DPG 
Management Plan, taking into account social and economic impacts, as 
described in the new rule? And if not, why not?
    Answer. The National Forest Management Act requires consideration 
of social and economic aspects in planning. The current Dakota Prairie 
Grassland (DPG) Management Plan was completed under the 1982 planning 
rule. At the time of the DPG's plan revision these elements were 
considered and displayed.
    The new planning rule provides an option for national forests and 
national grasslands to amend a plan under the 1982 rule for three more 
years. Therefore, any conditions that may precipitate a plan revision 
or amendment on the DPG would take into account social and economic 
impacts regardless of which planning rule is followed.
    As a final point, any future project-level planning would need to 
consider social and economic impacts on a site-specific basis, 
regardless of which rule the plan was written under.

                         FIREFIGHTING BORROWING

    Question. For several years in a row, Congress has not appropriated 
enough money for fighting fires. As a result, the Forest Service was 
forced to borrow money from its non-firefighting accounts to supplement 
the firefighting budget. Congress was then forced to come back and 
reimburse the Service for its extra costs. Not only is that an 
extremely inefficient way of doing business, but since we have not 
reimbursed the full amount that was borrowed, some of the Service's 
programs were being cut to absorb the difference.
    This past year, fiscal year 2005, Congress addressed the problem by 
adding $394 million for fire suppression activities, in addition to the 
$649 million in the base account. The president's budget is seeking an 
increase of $51 million in suppression funds for fiscal year 2006, but 
that still puts the request at only $700 million. That's at the 10-year 
average, but I'm concerned with what happens if next year turns out to 
be another $1 billion plus fire year. What other proposals does the 
Forest Service have to help alleviate this problem?
    Answer. In fiscal year 2005 the agency has approximately $1.2 
billion available for emergency suppression. This amount includes an 
annual appropriation of $649 million; supplemental appropriations of 
$394 million; and carryover from fiscal year 2004 of $313 million, less 
a $149 million pay back to K-V. We anticipate this amount will be 
sufficient for fiscal year 2005. In fiscal year 2006 the President's 
budget is $700 million. The Forest Service will also have any 
unobligated balances available following the fiscal year 2005 fire 
season. If a severe fire season occurs in fiscal year 2006 resulting in 
suppression costs that exceed the funding available, additional funds 
will be redirected from other agency programs. The agency is working 
aggressively to contain suppression costs to developing effective and 
efficient wildfire suppression that provides for public and firefighter 
safety, and striving to minimize the need for transfers from other 
programs.

                          SUBCOMMITTEE RECESS

    Senator Burns. I thank the members for attending this 
morning. I thank the panel for appearing this morning. The 
subcommittee will stand in recess to reconvene at 9:30 a.m., 
Thursday, March 10, in room SD-124. At that time we will hear 
testimony from the Honorable Gale A. Norton, Secretary of the 
Interior.
    [Whereupon, at 10:55 a.m., Thursday, March 3, the 
subcommittee was recessed, to reconvene at 9:30 a.m., Thursday, 
March 10.]

</pre></body></html>
